<html>
<title> - VOICING THE NEED FOR REFORM: THE FAMILIES OF 9/11</title>
<body><pre>[Senate Hearing 108-708]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-708

                      VOICING THE NEED FOR REFORM:
                          THE FAMILIES OF 9/11

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 17, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs


                   U.S. GOVERNMENT PRINTING OFFICE
95-509 PDF                WASHINGTON: 2004
______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
                 Jane Alonso, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Kevin J. Landy, Minority Counsel
                      Amy B. Newhouse, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Warner...............................................    17
    Senator Levin................................................    18
    Senator Coleman..............................................    24
    Senator Durbin...............................................    27
    Senator Specter..............................................    29
    Senator Carper...............................................    32
    Senator Mikulski.............................................    35
    Senator Clinton..............................................    38
    Senator Nelson (FL)..........................................    41

                               WITNESSES
                        Tuesday, August 17, 2004

Mary Fetchet, Founding Director and President, Voices of 
  September 11th, and Member, 9/11 Family Steering Committee.....     5
Stephen Push, Co-Founder and Board Member, Families of 9/11......     9
Kristen Breitweiser, Founder and Co-Chairperson, September 11th 
  Advocates, and Member, 9/11 Family Steering Committee..........    12

                     Alphabetical List of Witnesses

Breitweiser, Kristen:
    Testimony....................................................    12
    Prepared Statement...........................................    55
Fetchet, Mary:
    Testimony....................................................     5
    Prepared Statement...........................................    45
Push, Stephen:
    Testimony....................................................     9
    Prepared Statement...........................................    52

                                APPENDIX

Copy of S. 1718 from the 104th Congress submitted by Senator 
  Specter........................................................    66
Copy of S. 2811 submitted by Senator Specter.....................   143



 
                      VOICING THE NEED FOR REFORM:
                          THE FAMILIES OF 9/11

                              ----------                              


                        TUESDAY, AUGUST 17, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:07 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Levin, Specter, 
Coleman, Durbin, Carper, and Dayton.
    Also present: Senators Warner, Mikulski, Clinton, and 
Nelson.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning. I want to welcome our witnesses here today. Out of 
their tragedies, they are doing so much to help our country, 
and I hope that each of you who has suffered such a horrible 
loss can take comfort in the fact that you have been able, out 
of your loss, to do great good for our Nation. We thank you for 
being here with us today.
    This morning, the Committee on Governmental Affairs 
continues its series of hearings on the recommendations of the 
9/11 Commission for restructuring our intelligence 
organizations.
    Our witnesses today come from families who lost loved ones 
in the attacks of September 11. They remind us of why we are 
here. The victims were fathers and mothers, sons and daughters, 
husbands and wives. Those of us who did not lose loved ones 
that terrible day can never fully comprehend their loss, but 
all Americans, indeed all civilized people throughout the 
world, experienced an overwhelming mixture of grief, shock and 
anger, feelings that persist to this day.
    As this Committee wrestles with the issues, as we wade 
through the alphabet soup of the 15 agencies that comprise our 
intelligence community, and debate questions of budgets, 
personnel, authority and accountability, we must never forget 
that we are not doing this as an exercise in bureaucratic 
reshuffling. We are undertaking this important task because 
3,000 innocent people were murdered by terrorists on American 
soil.
    The September 11 attack was not just an attack against our 
Nation, it was an attack against the entire world. The victims 
came from 37 States and Puerto Rico, and from 17 other 
countries.
    Six Maine families suffered the most profound of losses 
that day. Among the victims was a retired couple from Lubec, 
the eastern-most town in the United States, who boarded Flight 
11 to celebrate a son's wedding in California. Joining them on 
that flight was a businesswoman whose parents lived in 
Parsonsfield.
    Two natives of Lewiston, Maine were on Flight 175. One, a 
lawyer and former Army paratrooper, was on his way to Thailand. 
The other, a former Marine, was on a business trip. A Navy 
commander, born and raised in Gray, Maine, was at work in his 
office at the Pentagon. And a young University of Maine 
graduate was in just his third week on the job on the 101st 
floor of the North Tower.
    The senselessness, the cruelty, of the attacks that ended 
these and so many other happy, productive and promising lives, 
only magnifies the tragedy.
    Since September 11 many family advocates have applied 
themselves with great energy and devotion to discovering just 
what went wrong. All who heard the testimony from family 
representatives before the 9/11 Commission this spring had to 
be impressed with the depth of their knowledge on terrorism 
prevention and response.
    Their knowledge is extensive, not because they are 
government policymakers, but because they are driven to find 
answers to their personal tragedies. This is a position that 
none of them chose to be in, but where they are determined to 
make a difference. And they have. You have made a difference.
    Today we will hear from three individuals who have devoted 
their time and their resources to making sure that we do all we 
can to prevent another September 11. Mary Fetchet is the 
Founding Director and President of Voices of September 11th. 
Stephen Push is a leader of Families of 9/11. And Kristen 
Breitweiser is the Founder and Co-Chairperson of the September 
11th Advocates.
    We very much appreciate your testifying today to help us, 
as this committee undertakes the critically important task of 
revitalizing our intelligence community. Thank you for all that 
you have done since that terrible day.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman, for 
your introductory words, and thanks to our witnesses, and 
welcome to Mary Fetchet, Stephen Push, and Kristen Breitweiser.
    You and so many other families of the victims of September 
11 have become familiar faces, friends, coworkers in the quest 
to understand how September 11 could have happened and what 
America must do to make sure, to the best of our ability, that 
it never happens again.
    We are, as we gather here today, moving toward our shared 
goal of passing the needed reforms that might have prevented 
September 11, and which we believe will help detect and prevent 
future attacks.
    I think the three of you have become skilled enough in the 
legislative process to know that we are not there yet, and that 
is where your continued advocacy, your presence this morning 
and of the mornings and afternoons and evenings to come, is 
going to be critical to achieve the goals that we have 
together. The fact is that the bill that many of us introduced 
to create the 9/11 Commission would never have passed if you 
three, and those who are your colleagues and friends in 
tragedy, had not come to Washington and spoke the truth of your 
loss, and questioned those in power in this town who did not 
want the 9/11 Commission to happen.
    As a result directly of your advocacy, in my opinion, the 
Commission was created, and that set the pattern that brings us 
to where we are today, as you, the families of the victims of 
September 11, continued to pressure and petition your 
government to do what was right in ways that were much less 
visible than your advocacy for the 9/11 Commission.
    I can testify to this, that you were there when the 
Commission had difficulty gaining access to the information it 
needed; when the Commission needed its budget increased; when 
some in Congress threatened to block the Commission's request 
for a 2-month extension. On each of those occasions you were 
there, and the result was a lot better than it otherwise would 
have been. I would say to you, Madam Chairman, although I think 
you know, that these citizens, these survivors, have become 
skillful advocates for a critical national cause.
    If a Congressman or Senator refused to meet with Kristen 
Breitweiser and her compatriots, known collectively and 
famously as ``the Jersey girls,'' three of them would wait 
inside the office, while the fourth stakes out the side door. 
They figured out those side doors of the Members of Congress.
    Stephen Push opened lines of communications using his 
experience in public relations with editors and reporters 
around the country. When a Congressman or a Senator was 
opposing the 9/11 Commission, Stephen made sure that the 
member's hometown papers and voters knew about it.
    Mary Fetchet opened her home in New Canaan, Connecticut to 
family members of other September 11 victims who needed to 
share their grief and seek assistance and strength, using her 
training as a clinical social worker.
    I guess I should have mentioned, Kristen, that you are a 
lawyer, but maybe that would have been self-evident. 
[Laughter.]
    And then in Mary's spare time, she also lobbied for the 9/
11 Commission all the way up to the President of the United 
States himself.
    I want to say to the three of you that I continue to be 
awed and inspired by the drive that you have shown to turn your 
personal tragedies into public safety for our Nation.
    Now the Commission has finished its work, the story of 
September 11 has been laid at more comprehensively than before, 
before the American people, along with bold recommendations for 
reform. Congress is taking it seriously, and I am proud that 
this Committee, under Chairman Collins, has set the pace in 
holding these August hearings, and has set some tough goals for 
action in September out of this Committee.
    I must say that some people think we are moving too fast, 
which is unusual for Congress. Somebody, I saw in a statement 
the other day, said doing it right is more important than doing 
it fast, but the important thing that you all have come to know 
is that there is more than one alternative to doing it right 
and wrong. The alternative is not to do it slow and wrong. The 
alternative is to do it fast and right. With your help, that is 
exactly what we are going to do.
    Yesterday in our Committee, the Chairman and Vice Chair of 
the Intelligence Committee, Senator Roberts and Senator 
Rockefeller, came forward and suggested to us that they were 
supportive of a strong National Intelligence Director. We are 
going to hear the details of their proposal soon, but I thought 
that was encouraging.
    On the other hand, there are voices that were heard 
yesterday, particularly in the Armed Services Committee that 
held a hearing, that were resistant to change.
    I want to say to the families generally, through the three 
of you, that we need you now more than ever. We have come this 
far together. We need to stay together to get the job of 
genuine and comprehensive intelligence reform done. I think you 
know, but if you do not, let me say it. You are a mighty force. 
You are a citizen army. Ultimately, you are a great moral 
force. And no mindless defense of the status quo can withstand 
the pressure that you are capable of bringing.
    This is going to be a battle. It is a battle for very 
substantial change, and people will resist change, even if it 
means protecting our country from another September 11. But 
your presence here gives me confidence that when all is said 
and done, we are going to have the real intelligence reform 
that America needs to keep the American people safe, and we are 
going to have it soon.
    Thank you.
    Chairman Collins. Thank you.
    I want to acknowledge that we have been joined by two 
Senators who do not serve on this Committee, but who both lost 
a number of constituents on September 11, and who have both 
followed the Committee's work very closely. I know that both 
Senator Mikulski and Senator Clinton made a great effort to 
join us here today because they wanted to firsthand hear your 
compelling statements. So we welcome them to our Committee 
today, and we are very happy to have you join us.
    I would now like to introduce the three witnesses. Mary 
Fetchet lost her 24-year-old son, Brad, in the World Trade 
Center. She is a Founding Director of Voices of September 11th, 
which serves as a clearinghouse for information for the 
September 11 families around the world. Her advocacy began 
immediately after the attacks by calling for respectful 
recovery efforts and family notification, and for the creation 
of an appropriate memorial at the site. As a Founding Member of 
the Family Steering Committee, she has not only advocated 
strongly for the establishment of the 9/11 Commission, but has 
also helped many other families. She is, as Senator Lieberman 
mentioned, a clinical social worker, and her organization is in 
the process of expanding its mission to providing counseling 
and social services to victims' families. She lives with her 
family in Connecticut.
    Stephen Push's wife, Lisa Raines, was a passenger on Flight 
77 which struck the Pentagon. He is a co-founder and board 
director of Families of September 11th, an organization that 
supports public policies that improve the prevention of and 
response to terrorism. Families of September 11th also works 
with private charities to reach out to family members of the 
victims of September 11 that may need counseling or other help. 
Mr. Push and his organization helped secure passage of the 
legislation that created the Commission, and he has served as 
the liaison between the families and the members and staff of 
the Commission. Before September 11 he was head of corporate 
communications at a biotech company in the DC area, and he now 
lives in Northern Virginia with his wife Deborah, who is also 
here today.
    Kristen Breitweiser lost her husband, Ron, in the World 
Trade Center. She is the founder and co-chair of the September 
11th Advocates, a group that has vigorously lobbied Congress 
and the White House for the independent Commission. Like Ms. 
Fetchet, Ms. Breitweiser is also a Founding Member of the 9/11 
Family Steering Committee. As Senator Lieberman noted, she is a 
lawyer. We do not hold that against her. [Laughter.]
    She used to practice at a firm specializing in family law, 
and she and her 5-year-old daughter live in New Jersey.
    Again, I want to thank each of you so much, not only for 
being with us today and helping us sustain the momentum, which 
as Senator Lieberman mentioned, is so critical. We are at an 
impotant stage right now to complete the work that you started 
when you pushed for the creation of the Commission. We look 
forward to hearing your testimony.
    Mary Fetchet, we will start with you.

TESTIMONY OF MARY FETCHET,\1\ FOUNDING DIRECTOR AND PRESIDENT,  
VOICES  OF  SEPTEMBER  11TH,  AND  MEMBER, 9/11 FAMILY STEERING 
                           COMMITTEE

    Ms. Fetchet. Hon. Chairman Collins, Senator Lieberman, and 
other distinguished Members of the Governmental Affairs 
Committee, I am honored to be here today to testify on behalf 
of the 9/11 families.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Fetchet appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    My name is Mary Fetchet. I am a member of the 9/11 Family 
Steering Committee, and Founding Director and President of 
Voices of September 11th, a 9/11 family advocacy group. More 
importantly, I am the mother of Brad Fetchet, who tragically 
lost his life at the age of 24 in the terrorist attacks on the 
World Trade Center on September 11.
    We appreciate your urgency in holding these hearings to 
address the critical task of implementing the recommendations 
made by the 9/11 Commission. We are equally indebted to the 9/
11 Commissioners and their staff, who worked tirelessly in a 
bipartisan manner over the last year to examine the events that 
led to the attacks and to develop recommendations to prevent 
future tragedies. The Commission may not have answered all our 
questions, but its report does offer a much-needed overall 
strategy to develop a comprehensive foundation for creating a 
safer America.
    The challenge now before all of us is whether we have the 
national will to combat a political bureaucracy, general 
inertia, and the influence of special interest groups in order 
to enact a comprehensive set of recommendations to improve our 
national security. The work will not be easy. It is, however, 
essential if we are to protect our families and our country.
    The last 3 years has been a painful education for me. It 
began on September 11, 2001, when my husband contacted me at 
work to let me know Brad had called him shortly after the first 
plane hit Tower 1. Brad was on the 89th Floor of Tower 2, and 
he wanted to reassure us that he was OK. He was shaken because 
he had seen someone fall from the 91st floor, ``all the way 
down.'' But Brad told my husband he expected to remain at work 
for the remainder of the day. The Port Authority, after all, 
had used the PA system to assure everyone in Tower 2 that they 
were safe, and directed them to remain in the building. Brad 
remained with his coworkers in their office as they were told. 
Other individuals, who attempted to evacuate Tower 2 at that 
time, were ordered back up to their offices. Shortly after my 
husband's call, I witnessed the plane hit Tower 2 on 
television. The image is forever etched in my mind, as it was 
at that moment that I knew our country was under attack, and 
that my son Brad was trapped in a high-rise building that he 
would not be able to escape.
    I never had the opportunity to speak with Brad. We later 
learned from a message he left his girlfriend at 9:20 a.m. that 
he was attempting to evacuate after his building was hit by the 
second plane. Obviously, Brad and his coworkers never made it 
out. He, and nearly 600 other individuals in Tower 2, who 
should have survived if they had been directed to evacuate, 
died senselessly because of unsound directions. As a mother, it 
did not make sense to me that they were directed to remain in a 
110-story building after the high-rise building next door had 
been hit by a plane, had a gaping hole in its side and was 
engulfed in flames.
    Since that day I have come to recognize the inadequacies in 
our overall preparedness, as well as the grave responsibilities 
and the inexcusable inertia of our political system. As with 
many who worked on the 9/11 Family Steering Committee, I came 
to Washington as a political novice, unfamiliar with politics 
or the political system, without a party affiliation.
    Every election day I voted for individuals irrespective of 
political party who I thought would best represent our country. 
However, my political involvement ended as I cast my ballot, 
assuming like most that my elected officials would act in my 
best interest, ensure my family's safety and counter any 
terrorist attacks. I believed that my government was a 
comprehensive organization, whose officials and agencies, in 
the best interest of national security, would share 
intelligence, collaborate and coordinate their counterterrorism 
efforts. Sadly, I was wrong.
    I, like others, have also tried to make sense of my son's 
death and those of the nearly 3,000 other innocent victims by 
collecting and scrutinizing newspaper reports on 9/11 issues. 
Two important themes quickly became apparent. One system did 
not fail our country, virtually all systems failed. They failed 
to follow existing procedures and failed to have protocols or 
effective lines of communication in place, leading to 
widespread breakdowns in our preparedness, defense and 
emergency response. The other painful realization was that our 
government is often paralyzed by partisanship and complacent to 
a fault.
    Our sad and frightening pre-September 11 history includes 
pervasive failures and shortcomings within and amongst 
government agencies due to breakdowns in communication on all 
levels, lack of direction and overall strategic plan, and a 
disconnect between policy, priorities and allocation of funds.
    More specifically, failures occurred due to:
    Intelligence agencies not sharing information within and 
amongst their organizations despite their common responsibility 
to protect our country;
    Not leveraging or updating technology already in place, 
which would have helped identify and stop these terrorists from 
entering our country or passing through domestic airport 
security point checks, ultimately preventing them from turning 
passenger planes into weapons;
    Inadequate or failed procedures and communication systems 
that prevented emergency response teams from effectively 
working with each other, connecting to workers in the World 
Trade Center, and communicating with outside agencies, such as 
airports and buildings that had already been identified as 
targets;
    Failure of the North American Air Defense Command and the 
FAA to have a protocol in place to rapidly identify and respond 
to hijacked planes;
    Failure of the FBI to process and act on Colleen Rowley's 
report and the Phoenix memo, which would have identified 
terrorists and the potential for planes to be used as weapons;
    Failure of the legislature to act on earlier 
recommendations to address the threat of terrorism, such as 
those proposed by the Hart-Rudman Commission, and those related 
to airline security by the Gore Commission;
    Allowing special interest groups to undermine and block 
preventative safety measures that could have prevented the 
September 11 attacks in an effort to save money, and
    Failure of our government and its intelligence agencies to 
have an overall strategy, to establish and coordinate policies, 
priorities and procedures based on the escalating threat of 
terrorism.
    Colonel Randall Larsen and Ruth A. David of the Anser 
Institute for Homeland Security, summed up the situation facing 
pre-September 11 America in an article published in Strategic 
Review in the spring of 2001, obviously, before September 11: 
``What is needed now is leadership from the administration,'' 
they wrote. ``There is widespread concern that threats to our 
homeland are both real and growing. . . . However, one of the 
most troubling questions yet to be answered is whether 
substantial changes such as those recommended by Hart-Rudman or 
Collins-Harowitz, can be made unless America experiences a 
tragic wake-up call.'' Ultimately, Larsen and David asked: 
``Will the administration and Congress have the vision and 
courage to act before we experience another Pearl Harbor or 
something far worse that could change the course of history?''
    We all recognize that we have experienced another Pearl 
Harbor, now known as September 11. The administration and 
Congress did not have the vision or the courage to act on 
previous information. Now 3 years after this tragic event and 
the death of nearly 3,000 innocent victims, it is apparent that 
the status quo is unacceptable, and reform is necessary. The 
questions we now face are twofold: Are we prepared? And if not, 
are we ready to move decisively to embrace a comprehensive 
overall such as the ones presented by the 9/11 Commission?
    As a Nation, we remain amazingly ill prepared to prevent an 
attack or at least minimize its impact. This is especially 
frightening since we are under a greater threat than ever.
    Consider for a moment that we live under a heightened 
national terrorist alert, and yet 3 years later systems have 
not been put in place to educate our families, our schools, our 
communities, on how to prepare for another attack. Several 
initiatives have been put in place since September 11, yet many 
of the core problems within and amongst government agencies 
have not been addressed.
    Communications systems are still inadequate; community and 
city-wide preparedness plans have not been effectively 
established or communicated; government agencies and 
legislative groups do not effectively share or leverage 
intelligence and general information or even readily accept it 
from the public as I know firsthand; an effective, government-
wide control center for all intelligence has yet to be 
established; and crucial Congressional oversight and budgetary 
control of this effort is not in place; no one is in charge.
    Some in Washington have warned that it may take 3 to 5 
years to enact all the measures needed. That is not acceptable 
to the 9/11 families or the American people. Our enemies are 
preparing to strike us now, and the longer we wait to move 
decisively, the greater advantages and opportunities they have 
to harm us.
    Former Defense Secretary William Cohen put the impact of 
unchecked aggression into perspective 6 years ago in speaking 
to New York's Council on Foreign Relations: ``No government can 
permit others to attack its citizens with impunity if it hopes 
to retain the loyalty and confidence of those it is charged to 
protect.'' Americans have lost faith in our government and its 
ability to protect us. You have to act now to restore it.
    I recognize the challenge with moving a Federal 
bureaucracy, however well meaning, in a new direction. Like any 
system, change and restructuring are difficult. Special 
interest groups, turf battles and simple fear of the unknown 
can all work against reform. Yet when American lives are at 
stake, indifference or inertia is unacceptable. I am confident 
you recognize what is at stake and are up to the challenge. We 
must embrace a complete and interlinking set of recommendations 
proposed by the 9/11 Commission. This plan should include the 
creation of a National Counterterrorism Center, and the 
appointment of a National Intelligence Director (NID) who 
reports directly to the White House.
    The NID should: Oversee all national intelligence and 
counterterrorism activities; develop an overall strategy to 
promote national and regional preparedness; coordinate 
policies, priorities and protocols amongst the 15 intelligence 
agencies; authorize and allocate the budget and resources to 
execute this strategy; ensure qualified individuals are 
appointed to key posts and have the ability to hire, fire, and 
more importantly, promote, individuals who are proactive in the 
fight against the war on terrorism.
    The aim is simple: A coordinated and comprehensive approach 
in gathering information and operating our intelligence 
agencies. I recognize that this Committee is charged with 
solely examining intelligence issues, but we must not allow 
ourselves to become shortsighted or piecemeal in our approach 
to America's safety. We must examine and embrace all of the 
Commission's 41 recommendations, for they are interconnected.
    As Governor Kean has mentioned, the success of the 
reorganization is also dependent upon changes made in foreign 
policy, public diplomacy, border and transportation security. 
Effective implementation is reliant on legislation, executive 
order, and a willingness to maintain a consistent strategy in 
each of these areas. Is there risk in transition? Absolutely. 
Governor Kean, Chairman of the 9/11 Commission, acknowledged as 
much in his report. He warned, however, that there is even more 
risk in doing nothing. We cannot afford to continue with the 
status quo. We must act now.
    Ultimately I want to do what I was not able to do on 
September 11. I want to protect my children and keep them safe. 
I cannot bring my son Brad back, but I can, in his memory, push 
for a safer America. When critical reforms are implemented to 
make our country safer, I will know that neither Brad's life, 
nor the lives of nearly 3,000 others who perished on September 
11, were lost in vain.
    As a result of research into the horrific circumstances of 
my son's death, I came to realize that our country was 
unprepared for the threat of terrorism despite forewarning. I 
now recognize that I cannot just be an observer, but have an 
obligation and a responsibility as an American citizen to be 
educated and aware of the larger issues that impact the safety 
of my family and friends. I encourage all Americans to read the 
9/11 Commission report, and to contact their elected officials 
to urge them to act expeditiously in a nonpartisan fashion to 
enact reform.
    Again, I want to thank you for this opportunity to express 
my views. My hope is that these hearings will lead to critical 
reforms. We now look to you, our elected officials, for 
leadership, courage and fortitude to embrace the 
recommendations. The safety of our families, our communities, 
and our country rest in your hands.
    Thank you.
    Chairman Collins. Thank you for such an eloquent statement. 
Mr. Push.

  TESTIMONY OF STEPHEN PUSH,\1\ CO-FOUNDER AND BOARD MEMBER, 
                        FAMILIES OF 9/11

    Mr. Push. Good morning, Senators Collins and Lieberman, and 
Members of the Committee. Thank you for inviting us, 
representatives of the 9/11 families, to provide testimony on 
this important issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Push appears in the Appendix on 
page 52.
---------------------------------------------------------------------------
    With all due respect to the Members of this Committee, your 
colleagues in Congress, and the Members of the Executive 
Branch, I would like to state what I believe is at stake in 
this debate. What is at stake is nothing less than the 
legitimacy of the U.S. Government.
    The primary function of government is to defend its people. 
If the government cannot prevent terrorists from entering the 
country and murdering innocent civilians by the thousands, its 
other functions have little value.
    The 9/11 Commission has confirmed what many of us who lost 
loved ones in the attacks have long believed since shortly 
after September 11: The U.S. intelligence community failed to 
capitalize on numerous opportunities to discover and disrupt 
the 9/11 plot. This failure disclosed long-standing systemic 
problems that render the intelligence community ill-prepared to 
deal with the threat of terrorist attacks by Islamist 
extremists.
    In fact, the term ``intelligence community'' is an 
oxymoron. One of the so-called community's greatness weaknesses 
has been its inability to coordinate its operations and share 
its intelligence with those who could use the intelligence to 
provide the Nation's leaders with useful, timely information.
    I have no doubt that, in the wake of September 11, this 
weakness has been ameliorated, in part by internal reforms, and 
in part by heightened diligence on the part of intelligence 
officers shocked by the devastation of the attacks. But I also 
have no doubt that these reforms have not gone far enough. And 
as the memory of September 11 fades in the minds of those not 
directly affected, the systemic problems will reassert 
themselves and our intelligence agencies will slip back into 
the old habits that left the Nation so vulnerable 3 years ago.
    I concur with the Commission's conclusion that fundamental 
organizational reforms must be undertaken in the government to 
create an intelligence community worthy of the name, worthy of 
the trust and treasure that the American people have invested 
in it, and worthy of the blood and sweat of the intelligence 
officers who labor, and sometimes risk their lives, serving the 
Nation.
    In my testimony I would like to focus on three issues that 
I believe you, as Senators and Members of this Committee, must 
address as you consider the Commission's recommendations 
regarding organizational reform of the intelligence community.
    First, you must provide the new National Intelligence 
Director with sufficient authority. We do not need a toothless 
intelligence czar, who can only cajole the intelligence 
agencies from the sidelines.
    The NID must be able to marshal all of the intelligence 
community's resources for collection and analysis. The NID must 
also be able to ensure that intelligence and assessments are 
shared with all of those who need them. To accomplish these 
goals the NID must have control over budgets and personnel.
    I recognize the concerns raised by the intelligence needs 
of the military. We must provide our war-fighters with the 
intelligence they need to accomplish their missions without 
exposing them to avoidable risks. But this concern is not a 
sufficient reason to maintain the status quo, in which the 
Pentagon controls 80 percent of the estimated $40 billion 
annual intelligence budget.
    While I do not want you to fix what is not broken in 
military intelligence, you must face the fact that the status 
quo has failed us. The current allocation of authority over 
intelligence budgets failed to prevent the murder of nearly 
3,000 people in one day on American soil. If the status quo 
continue, and if terrorists obtain weapons of mass destruction, 
future attacks may take tens of thousands or even hundreds of 
thousands of lives.
    I urge you to draft legislation that recognizes the need to 
coordinate intelligence for both military and homeland security 
purposes. I believe this goal can be achieved with the 
organizational structure recommended by the Commission, or 
something very similar to it.
    The position of the Deputy NID for Defense Intelligence can 
ensure that the military continues to receive the tactical 
intelligence it needs on demand, while enabling greater 
integration with the CIA, the FBI and the Department of 
Homeland Security. This integration will benefit both the 
military and homeland security, and is essential for the 
development of comprehensive intelligence assessments for the 
President and others.
    Some have complained that the Deputy NID for Defense 
Intelligence would have two bosses. That complaint reveals 
ignorance about the success of matrix management structures in 
solving similar organizational problems. Such structures have 
been used to great advantage for decades in corporations and 
other organizations.
    This model can be successfully applied to the intelligence 
community as well. But the ultimate authority must rest with 
the NID.
    What clearly does not work in the intelligence community or 
anywhere else is having 15 agencies ostensibly working towards 
a common goal without someone in charge full time.
    The second issue I would like to address today is the 
vulnerability our Nation has during presidential transition 
periods. While this may not be an issue that you will address 
in legislation, it is an issue you face when you confirm 
presidential nominees. I urge you to expedite the approval 
process of all nominees to intelligence and homeland security 
positions. When there is a change of administration, we do not 
need acting or lame duck people in these positions. We need 
these positions filled quickly with someone that the President 
has selected and trusts.
    I also believe that the President, through the selection of 
nominees, and the Senate, through the confirmation process, 
should avoid partisanship. When it comes to homeland security, 
there should be no Democrats or Republicans, only Americans.
    The third and final issue I would like to address is a need 
for prompt action. Since the Commission released its report 
last month, we have heard some officials urge us to take our 
time in reforming the intelligence community. I realize that 
fundamental reforms must be undertaken with deliberation, but 
the problems of the intelligence community have been painfully 
obvious to the public since September 11. In fact, previous 
commissions and other knowledgeable commentators have tried to 
alert Congress and the public to many of these problems for 
more than a decade. And the 9/11 Commission, composed of 10 
eminent individuals, backed by an outstanding staff of 80, has 
spent 20 months studying these problems.
    Meanwhile, al Qaeda and its offspring continue to hatch 
plots against Americans. Time is not on our side.
    Of course, please exercise due diligence in drafting the 
legislation, but please do so quickly. Otherwise, we may have 
yet another terrorism commission analyzing opportunities that 
the government missed today to thwart another terrorist attack.
    Thank you again for this opportunity to address you.
    Chairman Collins. Thank you for an excellent statement.
    I want to acknowledge that we have been joined by the 
distinguished Chairman of the Senate Armed Services Committee, 
Senator Warner, who also lost a number of constituents that 
terrible day. I remember Senator Warner organizing a van to go 
out to the Pentagon to assist the rescue workers, and he has 
shown great commitment to this cause, so we are very pleased to 
have him here today as well.
    Ms. Breitweiser.

      TESTIMONY OF KRISTEN BREITWEISER,\1\ FOUNDER AND CO-
CHAIRPERSON, SEPTEMBER 11TH ADVOCATES, AND MEMBER, 9/11 FAMILY 
                       STEERING COMMITTEE

    Ms. Breitweiser. Good morning, Senator Collins, Senator 
Lieberman, and other Members of Congress. I want to thank you 
for inviting me here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Breitweiser appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    Prior to September 11, we had no significant commitment or 
political will to dedicate the necessary resources to counter 
terrorism. Almost 3 years post September 11, perhaps that 
environment has changed. Testifying before all of you here 
today, I want to believe that it has changed, and that the time 
has now come to reform our Intelligence Community.
    We, as a Nation, should have made a historic reorganization 
of our domestic security structure a priority on September 12, 
2001, or at the very least, studied it more seriously. Yet 
nothing has been done or even seriously considered in this 
regard until now. Without doubt, the appointment of a NID in 
the next few weeks or months will not thwart the next attack, 
but perhaps if a NID was appointed 3 years ago, we might have 
been in a safer position than we are today.
    Realize that on the day of the next attack, Congress and 
the Executive Branch agencies will no longer have to deal with 
the 9/11 families, you will have to deal with the entire 
American public who had read the 9/11 Commission's final 
report. They will ask, ``How could this have happened?'' I only 
hope that there will be real changes underway so that at the 
very least your collective consciences will not haunt you.
    It has been said by some that they would have moved heaven 
and earth to prevent September 11. Respectfully, almost 3 years 
after September 11, we do not need heaven and earth to move. We 
just need our Executive and Legislative Branches to move so 
that we are in the best possible position on the day of the 
next attack.
    September 11 has been called an intelligence failure. Prior 
to September 11 we have legal impediments, intelligence 
agencies that were not necessarily cooperative, integrated or 
coordinated in their efforts, outdated computer systems, no 
clear accountable and strategic management structures, and very 
little strategic analysis performed on terrorist organizations 
like al Qaeda. Part of the reason for these failure was due in 
part because our intelligence community lacked a true captain 
of its ship.
    While DCI Tenet was, in theory, in charge of the entire 
intelligence community, the record from Septemer 11 indicates 
that he failed in that capacity. One reason he might have 
failed was because he lacked budgetary authority to make all 15 
intelligence agencies that he oversaw work efficiently, 
cooperatively and successfully. Or, perhaps the real reason was 
that the expectation that one man could effectively perform the 
job responsibilities of a true DCI were far too high and 
impossible to meet.
    Yet, after reading the 9/11 Commission's Final Report, it 
appears that our intelligence agencies did perform quite well 
on some levels, because the record proves that our intelligence 
agencies did have enough information to stop the attack. For 
whatever reason, judgments were made at crucial times that 
negated field agents and analysts from properly doing their 
jobs. Sadly, the examples of these instances are far too many 
to be fully enumerated in this limited testimony. Suffice it to 
say that they are all clearly laid out in the Commission's 
Final Report, its accompanying footnotes, and the Joint Inquiry 
of Congress' Final Report.
    Going forward, we must ensure that when intelligence 
community judgments are made and people are killed, at a bare 
minimum, someone in our intelligence community is held 
accountable. The NID would be that person.
    With a NID and a NCTC established, the next time we have a 
terrorist organization planning against us, we will recognize 
the existence of that threat sooner and develop a proactive 
covert action program to counter that threat before it grows to 
a reality. We will not suffer from instances of poor judgment 
that hampered our agents' abilities to stop the September 11 
hijackers. And if we find a series of poor judgments being 
made, we will not only hold the deputy of that department 
responsible, but we will hopefully have a NID to who has 
ultimate responsibility for the actions and behavior of the 
Intelligence Community.
    Our intelligence community consumes $40 billion of taxpayer 
dollars. The American public should expect some sort of 
accounting from this organization. No one doubts the commitment 
and work of the field agents and rank and file workers in our 
intelligence agencies, but they need clear leadership. A NID 
would provide this leadership. A NID would make a difference.
    Prior to September 11, inadequacies in airline security 
were recognized, yet there was no action taken by the FAA or 
the airlines to remedy these system-wide shortcomings. Examples 
of such inadequacies range from poorly trained and paid airport 
security personnel, failure to maintain an effective/integrated 
no-fly list, and a failure to establish effective airline 
security protocols.
    Three years post September 11, the need for a NID is more 
urgent than ever. The impact of a NID on the airline security 
apparatus is undeniable. Airline security is not fixed. Chain 
of command and authority issues are not resolved. A NID would 
be able to force all constants and variables involved in the 
airline security equation to work together cooperatively. He 
would be able to assign accountability and responsibility so 
that problems are identified, addressed and remedied. He would 
be able to effectively prioritize problems because he would 
have the benefit of knowing our overall national intelligence 
strategy. He could apply that overall strategy to affect the 
day-to-day operations of the airlines industry.
    In sum, a NID would be able to take the airlines, just one 
component of the national security apparatus, and better equip 
them to meet the demands of the ever-evolving national security 
environment. He would not be influenced by financial interests 
or persuaded by lobbyists. He would look at the airline 
security system through a pure and singular focus to make the 
airlines as safe as they can be. None of our public 
transportation systems will ever be 100 percent safer, but they 
can most definitely be made safer. A NID would set goals, 
assign tasks to meet those goals, demand accountability, and 
allocate funds accordingly. A NID would make a difference.
    The largest problem presented to our military was in some 
way, and continues to be, the failure of our intelligence 
community to gather actionable intelligence for our military to 
justifiably act upon. Prior the September 11, whether it was 
missile strikes, deploying our special forces to infiltrate 
organizations, or sending reconnaissance aerial vehicles to 
gather information, all of these options ultimately failed 
because they lacked the actionable intelligence to spark their 
action.
    Prior to September 11, much debate took place about whether 
to fly the Predator over Afghanistan, who would pay for the 
flights, who would be responsible if the aerial vehicle got 
show down, who would be responsible if the vehicle marked and 
killed people, etc. In short, no one, neither DCI Tenet or DOD, 
wanted to take operational responsibility or fiscal 
responsibility for flying this vital reconnaissance vehicle.
    This was the topic of discussion during the first 
principals meeting of the Bush Administration held at the end 
of the summer of threat. September 11 was a mere 6 days away, 
3,000 civilian people were rightfully carrying on with their 
lives, completely unaware of their sealed fate. And our 
leaders, those charged with protecting us, were fighting over 
whether to fly the Predator halfway around the world to try and 
gain surveillance video of al Qaeda. As their heated debate 
continue, their argument over money and responsibilities, al 
Qaeda was already here in the United States, lying in wait, 
fully embedded and prepared to kill 3,000 innocent people. If 
that does not illustrate how off the mark our military and 
intelligence community was in the months leading up to 
September 11, I do not know what does. A NID might have made a 
difference.
    Regarding the need to remove many of the 15 intelligence 
agencies outside the Department of Defense, perhaps one thing 
needs to be made clear. In the fight against terrorist 
organizations, ``boots on the ground,'' engaging our military, 
is Step Two in that process. We must not forget about Step One, 
our intelligence community. In truth, if all players in Step 
One, our intelligence community, do their job, we never have to 
get to Step Two, our military. Our military should not be our 
primary tool, it should be our secondary tool, our backup plan. 
That is why we must strengthen our abilities and capabilities 
in Step One.
    Step One involves our intelligence community having the 
most direct unfiltered information and effectively acting upon 
that information. To get the best most direct information our 
intelligence agencies need the authority and budgetary control 
over the tools that provide them with such information. Leaving 
management and budgetary authority over these tools in the 
hands of DOD had proven ineffective. September 11 speaks to 
that ineffectiveness.
    In a perfect dynamic, if tools are used correctly, 
intelligence information flows freely and directly, and our 
intelligence community acts effectively, Step Two, boots on the 
ground, might never be needed. The problem to this very day is 
that nobody is coordinating our intelligence resources, being 
held accountable for improving and reorganizing our overall 
intelligence apparatus, and demanding responsibility from all 
of those elements in our intelligence community, so that we do 
not have to arrive at Step Two. Again, perhaps a NID could make 
a difference.
    Both prior to, and post September 11, the use of diplomacy 
to deal with terrorist groups like al Qaeda was not a model of 
success. The problem regarding counterterrorism and diplomacy 
was a problem involving evidence and action.
    Prior to September 11, we had a clear and present danger 
presented by al Qaeda that was clearly not fully appreciated. 
Our intelligence community failed to pick up and act upon the 
real threat that was presented by al Qaeda. Politics and policy 
might have played a role in this. Post September 11 we did not 
have such a clear and present danger of WMD in Iraq and our 
intelligence community apparently overstated that danger. 
Politics and policy might have played a role in this result as 
well. Nevertheless, in both scenarios, two constants remain: 
One, people are being killed, and two, we have an intelligence 
community failing to do its job. This has to change.
    We, as a Nation, must find the middle ground. First, we 
must have an intelligence community that we can rely upon. We 
must equip them with the skills, tools and resources to do 
their job, and we must set up a structure that will hold them 
accountable when they fail to do that job. We must insulate 
their work product from both politics and policy. Only then can 
our leaders earnestly rely upon their work product and advice 
in making their own policy level decisions. From that pure 
unfiltered work product, our leaders can decide whether, when, 
and how to take action. A NID could make a difference.
    A NID would be able to integrate our border control into 
our national security strategy and give our border control 
agents commensurate resources. A NID would ensure that 
terrorist travel intelligence became a valued part of our 
counterterrorism strategy. A NID would recognize that 
disrupting terrorist mobility globally is at least as important 
as disrupting terrorist financing. He would demand that our 
student tracking system be operable and effective. He would 
oversee follow up and designate resources for the use of 
biometrics in our border security system. He would make sure 
that programs like TIPOFF are able to work effectively and 
share their information collectively.
    Three years since September 11 our border security still 
suffers from inefficiencies, poor funding, inadequate 
intelligence sharing, and the poor integration of an overall 
strategy. A NID would make a difference.
    While the two recommendations, the NID and the NCTC, that 
are the focus of this hearing are important, we must not lose 
focus on the equal importance of the remaining 39 
recommendations. Quoting Commissioner John Lehman, ``the 
Commission's report is not a Chinese menu.''
    We must no longer take a single-track approach to our 
Nation's security. It is not simply striking out and fighting 
the terrorists overseas. We need to contemplate other 
complimentary methods in this ongoing war. By holding public 
hearings on these supplemental methods, the American public 
will be able to consider these additional methods. methods that 
include providing education and economic opportunities, 
eviscerating terrorist funding, decreasing our dependence on 
foreign oil, and reallocating funds to pay for vital programs.
    Sitting here before you today, I want to divulge my self-
interest and the turf I want to protect. My self-interest is to 
make sure that no other person has to walk in my shoes. I want 
to do everything I can to ensure that no other family has to 
feel the unparalleled pain that I felt on the morning of 
September 11 as I watched my husband get murdered on live, 
worldwide television. The turf I want to protect is the turf 
that my 5-year-old daughter and I walk and drive across. It is 
our great Nation. I answer only to the memory of my husband, 
Ron, and my own good conscience.
    The 9/11 Families are not concerned about reelection and 
pleasing our constituents. We are not worried about losing 
budgetary controls. We are not misguided by interagency turf 
wars. We have one singular purpose, and that purpose is to make 
our families, your families, and the Nation safer than it is 
right now.
    We ask the Congress, the White House, and all other 
Congressional and Executive Branch agencies to be Americans 
first, not partisan politicians with self-interests, not 
appointed officials with turf to protect, not unimaginative 
figures unwilling to embrace change out of fear of losing the 
status quo, because it is no longer sufficient to support 
national security on an ad hoc basis. Your support of national 
security must be all inclusive and wholehearted, regardless of 
how it may hurt you personally or politically. In short, 
working cooperatively to make this Nation safe is like the 9/11 
Commission's recommendations. Your commitment must be 
wholesale, measured in thought, and endorsed by sound action. 
You cannot pick and choose which initiatives should succeed on 
the basis of your own self-interest. You must have the courage 
to be an American first.
    We stand before you as people who have lost our loved ones. 
We felt our pain on September 11, and we are now adapting to 
life without our loved ones. We have taken our unspeakable pain 
and made some good out of it by fighting for the creation of 
the 9/11 Commission. We are now urging you to act upon the 
Commission's recommendations.
    There are many other families whose loved ones are today 
risking and giving their lives to defend this great Nation, 
both at home and overseas. We are so grateful to them, and we 
share their pain. We appreciate and are grateful to their self-
sacrifice in being Americans first, and making this Nation 
safer.
    In the ensuing months, hopefully not years, as this 
language begins to be drafted, and thereafter battled out 
behind the scenes, I simply, humbly, and with great respect, 
ask all of you to remember during those negotiations and the 
heated conversations, how many of us have already learned to be 
Americans first. I truly hope that you can do the same.
    Chairman Collins. Thank you for your moving testimony. In 
my opening statement I said that you remind us of why we are 
here, and why this task matters so much, and your eloquent 
testimony helps us accomplish the goal that we have been 
assigned, and that is to pass reforms that will help to make 
our country safer, and I am very grateful for your role in 
that.
    I am going to go out of the usual order because two of our 
members, Senator Warner and Senator Levin, are going to be 
leading hearings in the Armed Services Committee in just 10 
minutes or so, so I am going to recognize them first for any 
comments that they might have or any questions.
    Senator Warner.

 OPENING STATEMENT OF SENATOR WARNER, A U.S. SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Warner. Thank you, Madam Chairman, and I commend 
you and your Committee for the work that you have done.
    I have been privileged to be here for a number of years, 
and I have seen many groups formed to advocate their causes, 
but none have ever equalled your groups collectively in terms 
of your strong feelings, and yet your realistic appraisal of 
the problem and how it can best be addressed. You have come 
before the committees of the Congress, remarkably well 
prepared, and you delivered your messages as well as any 
witness that ever sat at that table. So I commend you.
    I really believe that Congress can do some things, and will 
do some things, important things. The President is considering 
several options that can be implemented by executive order. 
Much has been done since September 11, from the Patriot Act to 
the Terrorist Threat Integration Center. So it is an ongoing 
process, but each step must be done with great care, such that 
we achieve a positive incremental improvement in deterring 
terrorism and protecting ourselves against attack.
    I pledge to you, as I have to my committee in the Senate, I 
am not concerned about turf. I have been here many years. I 
know exactly what our committees can do and should do, and I am 
certain they will do the right thing, together with the Senate 
as a whole, once we put together our report.
    But bear in mind this Nation is at war. The intelligence 
system that we have in place now must serve those brave young 
men and women in the far-flung battlefields of the world, from 
Iraq to Afghanistan, and elsewhere, and they must serve them 
right at this very minute while we are here.
    So, as we begin to discuss changes to our intelligence 
structure and consider new authorities, we have to do it very 
carefully so that we do not lose a single beat in the 
efficiency of the system that is now serving this country. So 
bear with us. I think our President has shown great leadership, 
and Congress will likewise show leadership. And we can achieve 
some things in this remaining Congress, but it is an ongoing 
process, and I thank you once again.
    I thank the Chairman
    Chairman Collins. Thank you.
    Senator Warner. I invite you to our committee hearings in 
the Caucus Room, for those of you who wish to, when this 
Committee concludes its work.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Madam Chairman, thanks to you and Senator 
Lieberman for not just today's hearing, which is incredibly 
powerful, but for the other important hearings that you have 
had and that you will have. Your leadership is essential.
    Our witnesses today have given us a powerful push towards 
resolution of this matter, towards reforms. I think all of us 
are guided by one goal, and that is to make our country safer 
so that your loved ones will not have died in vain and that 
some measure, positive measure of good, can come out of their 
loss. That is not much solace, but I am afraid it is the best 
that we can do and what we must do, but I only want to assure 
you that every one of us, I believe, even though there will be 
differences as to what the right way to go at these reforms is 
and what the best reforms are will be moved by your standard. 
We had better be or else we are letting you down, and letting 
our families, and our children and our grandchildren down. That 
standard is what will make our Nation stronger.
    There will be differences, however, among people as to what 
will make our Nation stronger. You will not probably find, at 
least an easy consensus on that matter, but there is a 
consensus on that goal, and you have reinforced that goal among 
us. We thank you for that. I think you would want us to have an 
honest debate and deliberation providing that polar star is 
what will make our Nation stronger. Thank you for reinforcing 
that.
    One of the matters that is most troubling to me has been 
the lack of accountability. We have to build in accountability 
in a system, and I think the appointment of a NID, a National 
Intelligence Director, can lead to that, but I must restate my 
deeply held belief that there was a failure of accountability 
in the existing system for people who failed to do their 
assigned tasks, and that is an ongoing failure. We are still 
waiting for word from the CIA, and the FBI as to what about the 
failure to carry out assigned tasks. Where has been the 
accountability there? So I am going to keep my focus on that, 
among all the other needs here, but I want to again just add my 
thanks to you and all of the other families for sharing with us 
the pain that you have suffered so that hopefully we can be 
stronger and avoid that pain for other families.
    Chairman Collins. Thank you.
    Ms. Fetchet. Senator Levin, could I just comment on what 
has been said so far? I am very concerned that it seems like 
there is this mentality where there is more focus 
internationally. I think that we have to rethink that. I think 
we are at war in our own country today and that it needs to be 
a priority. There has been report after report, commission 
after commission, over the last decade, many with the same 
recommendations. We cannot afford to continue to debate. We 
have to move on this.
    It does not mean that things have to be disassembled. I 
think they have to be complemented and maybe readjusted--not to 
move the boxes around, as some people have said, but to have 
real structure and a real strategy in place so that 
domestically we are protected. These people live in our 
country. There is not monitoring in place, and I think there is 
really an imbalance between the CIA and the FBI, which really, 
in a sense, led to some of the challenges that they faced.
    We have to be focused on domestic security, and we are at 
war in our own country. Our families are not protected. Your 
family is not protected today. So I welcome the debate, but I 
think, at some point, we have to make some hard decisions, and 
we have to move on them. We cannot continue to debate and do 
nothing, and that is what has happened over the last decade.
    I heard Ms. Harman mentioning that we have a plan in place 
from 1947. We have other issues. It is a different world today 
than it was in 1947, and we have to set those priorities. They 
have to be constantly evaluated and re-evaluated. That system 
is not in place. I mean, what are our priorities? They are 
always changing. And so I think, because our priorities should 
be changing, our approach should be changing. And maybe the 
government that is in place worked in 1947, but we have 
different issues today.
    Chairman Collins. Thank you.
    Senator Levin. I agree with that, very much different.
    Chairman Collins. I want to point out that we have been 
joined by Senator Bill Nelson of Florida. He has attended I 
think every one of our hearings. He has been extremely 
interested. I know that he will be going to Armed Services, as 
will Senator Clinton, and Senator Dayton, who was here earlier. 
They will be coming back and forth, and I just wanted to 
explain that to our witnesses today.
    All of you have made the point that every one of the 
recommendations of the 9/11 Commission is important. One of you 
quoted Secretary Lehman as saying, ``This isn't a Chinese menu. 
They all work together.'' But based on all you have learned in 
the past 2 years, which recommendations do you believe will 
make the most difference? I am not saying that we should ignore 
those that may be secondary, but which ones, based on all of 
your study, all that you have learned, do you believe would 
make the most difference?
    We will start with you, Ms. Fetchet.
    Ms. Fetchet. Well, I think the National Intelligence 
Director and the Center really go hand-in-hand. There were 
breakdowns. I mean, it is well-known that there were breakdowns 
in communication between, really even within some of these 
agencies. I think to have somebody in control, not just a 
figurehead, but somebody that is working hand-in-hand with the 
White House, so their policies, their procedures, and their 
focus are in line because, again, I go back to talking about 
priorities. The priorities change, and the priorities have to 
be constantly reassessed, and so to do that that person has to 
be able to evaluate, through these 15 agencies, what the real 
priorities are of the day, and then they have to allocate funds 
that are focused on that.
    One thing that came up when we were researching this is 
that some of the intelligence agencies had budgets and had 
resources, but they were not in line with what the priorities 
should have been. So the FBI may have been focused on drug 
smuggling and prostitution rings, when the real focus should 
have been the threat of terrorism. So I think having somebody 
in control that can set the tone, identify the priorities 
moving forward, would certainly be, I think, the most important 
thing.
    Chairman Collins. Mr. Push.
    Mr. Push. Well, I would like to call attention, 
particularly to the recommendations that the Commission made 
concerning diplomacy and foreign policy. We need to change our 
relationship with Saudi Arabia. It cannot just be about oil and 
selling arms. We need better public diplomacy to win over the 
vast majority of moderate Muslim people to our way of seeing 
things or at least to create a dialogue with them to get us 
communicating with them and to deprive al Qaeda of the recruits 
that it currently has access to.
    I hope you do appoint a strong NID, and I hope that 
individual is able to make the country safer. But we can have 
the best intelligence in the world. We can have heavy security 
around every building in the country, but we are never going to 
be able to stop people from coming here and killing Americans 
if we do not win the war of ideas in the Muslim world. And so 
those, very often in the press, those particular 
recommendations get short shrift and are not concentrated on, 
but I think they are very important.
    Chairman Collins. Thank you. Ms. Breitweiser.
    Ms. Breitweiser. I concur with both Mary and Steve. 
Candidly, I think the most important recommendation is the one 
that is most likely to get done sooner rather than later. If I 
had to pick one, I would say border security. My understanding 
is that our border security apparatus is in shambles. It is in 
very bad shape, and that is something that really could be 
fixed with the proper allocation of funds. It is inexcusable 
that we have a budget that we have, and yet border security has 
finite solutions to problems that they are currently facing and 
we are allocating the funds properly towards that direction. 
Certainly, a NID would be able to make sure that those funds 
were allocated to where they needed to go, but I would have to 
say the border security recommendation by the Commission.
    Chairman Collins. Thank you.
    Some groups have expressed concerns about the privacy and 
civil liberties aspects of some of the recommendations of the 
Commission. They point, for example, to the proposal to give 
the NID authority over both domestic and foreign intelligence, 
an area where we have always had a sharp divide, but a divide 
that we now know has led to a lack of communication that should 
have occurred prior to September 11.
    They also point to the recommendations for biometric 
screening and also the recommendations to have a standard 
driver's license so that each State would not have a different 
form of a driver's license. Some fear that is the equivalent of 
a national identity card. Do you have any concerns about our 
ability to strike the right balance between security and civil 
liberties?
    We will start with you, Ms. Breitweiser.
    Ms. Breitweiser. You know, clearly, I think that there has 
to be a balance. We have to strike that balance. I think we 
particularly have had some problems striking that balance with 
regard to the Patriot Act, and I think that we live in a 
Democratic society, and I think that more than anything we need 
to make sure that we do not lose the spirit of a democratic 
society.
    Nevertheless, I think what it comes down to is trust. If 
the American people have confidence in our government and in 
our leaders, particularly a NID, if we have the apparatus set 
up in such a way that we have confidence that it will not be 
abused, that it is necessary to have something like an 
international identity card to carry out biometrics, then I 
think that the American people will support that.
    But I have to tell you they need to be educated on that, 
and that is something that is a perfect topic for a public 
hearing. Let the American people be educated and then let them 
make an informed decision by calling all of their elected 
officials up and giving their opinion. That is how democracy 
works. And I think you can strike that balance. I just think 
that you need to make an effort to do that, and one way you do 
that is by holding hearings on that topic.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks very much, Madam Chairman. Let me 
join you in welcoming Senator Mikulski and Senator Clinton, and 
thanking them for taking the time to be here. They have been 
very strong supporters of the 9/11 Commission in its initial 
fight over whether it would exist and now in implementing its 
reforms, and I thank them for taking the time to be here.
    I would have to declare, by way of full disclosure, that 
when it comes to the three of you, I am not unbiased, but I 
thought your statements were very effective, very powerful. You 
obviously bring your own experience of September 11 and the 
loss you suffered, but you also made a study of this tragedy. 
And with all respect to anybody else who would claim to be a 
so-called expert, I would put you up against anyone. I think 
you know this subject very well, and as a result there are two 
critical roles, just to develop a little bit what I said in my 
opening statement, that I think you can play in the weeks ahead 
as we move to get this done.
    The first is that you do bring your own human experience 
here. Mary, you lost a son. Steve, you lost your wife. Kristen, 
you lost your husband. And if this process, as it naturally 
will at some point, does yield to turf protection or 
partisanship, you have a unique, sadly, ability to focus us on 
what all of you said in one way or another. We have to be 
Americans here. We have to focus on protecting the safety of 
the American people so that no one else is in your position 
next time.
    Second, you are experts, and you have studied this. You 
have reached some conclusions. And from what I have heard from 
the three of you, you feel very strongly about adopting the 
recommendations of the 9/11 Commission, and you are as well-
prepared to stand toe-to-toe with people and argue for their 
recommendations as anyone. So I think you have a critical role 
to play, and I thank you for your extraordinary testimony this 
morning.
    I want to go back to when the report came out and you read 
it. I am interested to know which of the factual findings 
struck you as most significant or most surprising before you 
got to the reform recommendations section.
    Mary or Kristen, you want to start, please.
    Ms. Breitweiser. We all have done so much research in the 
past couple of years, so that really, after reading all of the 
staff statements, there was very little in the final version of 
the report that surprised us.
    I would have to say, for me, personally, it would be in the 
footnotes on page 502, particularly footnote 44, and I think 
that is a prime example of why we need someone like a NID. 
Because I think when you look at the record from September 11 
and you read the Joint Inquiry of Congress's report, and you 
read this report, clearly, we need to make sure that we have a 
CIA that is answering to a boss because the record is just 
replete with examples of the CIA making judgment calls.
    Senator Lieberman. What does that footnote, just generally, 
say?
    Ms. Breitweiser. My favorite footnote.
    Senator Lieberman. I do not need you to read it.
    Ms. Breitweiser. It is page 502, footnote 44. It discusses 
the watch listing issue, and it is a CIA desk officer. You have 
to read the footnotes, too.
    Chairman Collins. The print is too small. [Laughter.]
    Senator Lieberman. Yes, that is what my law professors used 
to tell me.
    Ms. Breitweiser. All the good stuff is in the footnotes.
    I think it does bring up the important point that our CIA 
needs to be answering to someone, and I know there is talk 
behind the scenes that we do not need a NID. We will leave a 
DCI and just give them budgetary authority. I think the record 
from September 11 clearly indicates that the CIA needs to 
answer to someone, and that someone could be a NID.
    Senator Lieberman. Amen. Incidently, I appreciate that you 
mentioned the Predator story because part of the argument made 
for not altering the Pentagon's control over its intel budget 
is that nobody has said that the Pentagon fell short or 
contributed to September 11, but the very fact that there was 
that argument going on, right up to 6 days before September 11, 
shows why there needs to be somebody at the top.
    Ms. Breitweiser. I totally agree with you, and I think more 
than the argument which, in my opinion, was a petty argument 
that carried on for far too long, had we had a NID to say, 
``Cut it out,'' like a mother saying, ``Cut it out''----
    Senator Lieberman. Right.
    Ms. Breitweiser. And to add to that the fact that we were 
looking halfway around the world. These people were here.
    Senator Lieberman. Right.
    Ms. Breitweiser. There were sleeper cells, and what is sad 
is that you had DCI Tenet at that meeting. He knew about 
Zacarias Moussaoui. He had that information in his head. It 
should have been brought up at that meeting, and that is where 
the attention should have been placed, not flying a very 
important piece of machinery halfway around the world.
    Senator Lieberman. Steve.
    Mr. Push. Similarly to what Kristen said, very little in 
the report surprised me because I had been following the issue 
so closely, but I really appreciated that we finally had an 
authoritative assessment of all of these facts.
    The two things that I found most surprising was the role of 
Iran in aiding the hijackers, which is, I think, a very 
important point and speaks to the geopolitical issues that need 
to be addressed in that part of the world. And the other is the 
fact that the head of the CIA knew about Moussaoui, but the 
head of the FBI did not, which I found rather shocking, that 
not only do we have a lack of communication between agencies, 
but also a lack of a communication within an agency.
    Senator Lieberman. Absolutely.
    Mr. Push. The so-called stovepiping, as opposed to--the one 
advantage of the stovepiping is supposed to be providing 
information up to the top, and it was not even doing that in 
the FBI.
    Senator Lieberman. Thanks. Ms. Fetchet.
    Ms. Fetchet. Well, I would agree with both Kristen and 
Steve. I was sort of reading between the lines because we do 
have so much information after studying this for 3 years, but I 
think the lack of communication. Maybe it is because my husband 
works for IBM, but I just cannot understand, when there is 
technology out there, how people are not put on watch lists. I 
mean, if an airline can know what flight you are on, what seat 
you are in, what time you are leaving, what time you are 
landing, they should be able to simply put in names and to 
identify not, as hijackers, but as the possibility of being a 
terrorist.
    And I think that just the systemic inadequacies, a lack of 
communication, I mean, when you read the report that is 
consolidated like it is, I think just the lack of 
communication. And I think the thing that frustrates me is we 
are all working towards one goal. I mean, if the goal is to 
protect our country, to represent our citizens, and I see the 
duplicity, the lack of having systems in place, that seems so 
logical to me. I just cannot understand that. And I have seen 
that actually in Congress, since I have been here, to just 
mention the commission reports that have sat on shelves, but 
also that one committee might come up with a finding, a 
recommendation, and then the committee changes, and they start 
the whole process over again.
    Senator Lieberman. Right.
    Ms. Fetchet. That there is never any follow-through, and I 
think that is pretty apparent overall, that the government, in 
a sense, is antiquated, not having computer technology in the 
FBI when you are supposed to be following people? That just 
does not make sense to me.
    Senator Lieberman. Your questions, your eyes are open so 
clearly, and the questions you are raising, recommendations you 
are making are so sensible. And in one sense, what is on the 
line here in our response to this, is what one of you said, 
which is the legitimacy of our government to carry out its 
first responsibility, which is to protect the security of our 
people or our citizens.
    Ms. Fetchet. Senator Lieberman, could I just--Senator 
Collins brought up the civil liberties issues. One thing I 
would say, as we were working on this--and that came out with 
the Patriot Act--I think it was very misleading to the general 
public that that was going to fix what happened on September 
11. And as you look at the report, you can see it was not that 
they did not have information--they did not share information, 
they did not compile information.
    So I think that there was a sense, by the general public, 
that this was going to address that issue, but that was not the 
issue on September 11. And I think that we have to think in 
terms of what is out there already--licensing, traffic 
violations, visas, expired visas--all of these things that they 
could compile in one database, and it would raise a red flag. I 
mean, there is information out there that is not in a database 
yet.
    Senator Lieberman. You are absolutely right.
    My time is up. I will just say this. The testimony you have 
offered and the responses you just gave to the question I asked 
remind me of something else. Our Committee has been focused on 
what Chairman Kean and Vice Chairman Hamilton said were their 
top two priorities: The National Intelligence Director and 
National Counterterrorism Centers. But they made a lot of other 
very important recommendations. And you have highlighted them 
in different ways: The integrated screening system for people 
coming in and out of the country, a possible need for a 
standardized license, combining the watch lists the impact of 
diplomacy, the whole border security system. I was struck that 
you, Steve, pointed out in one of your top three issues the 
need to accelerate the transition from administration to 
administration.
    They first hit the World Trade Center in 1993, the first 
year of the Clinton Administration. They then hit the towers 
again in 2001, the first year of the Bush Administration. Maybe 
coincidental, maybe not. Thank you.
    Thanks, Madam Chairman.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman.
    I again want to thank the witnesses for sharing their 
personal stories. This is really extraordinary. Yesterday, we 
had before this Committee three former heads of the CIA, and we 
all said we learned a lot, and we did. But here we have average 
citizens who have been deeply personally impacted who know this 
stuff, who really know this stuff. I find it pretty 
overwhelming. And in your tragedy, you have come to understand 
a system that, in the end, we are going to make some changes. 
We will make some changes.
    Mr. Push, you indicated, and you talked about the primary 
function of government is to defend its people, and I agree, 
but you also then raised a cautionary note about the fading of 
the memory of September 11, and I just want to make this 
statement. I come from a Midwest State, impacted personally. I 
have gotten to know one of the families, the Burnett family, 
whose young son, Tom, was on Flight 93 and one of those folks 
who charged the cockpit. And I come from Brooklyn, New York, 
and had a grade school and high school friend on that same 
flight.
    But I have to say my family is still in New York, and they 
are in New Jersey. They have a much different sense, a much 
different present sense than I think many of my constituents do 
because they live in Marlboro, Manalapan, and friends worked in 
the World Trade Center, and so it is--so I just want to express 
the importance of keeping the sense, and the memory, and the 
impact alive. It then helps us kind of move through.
    And we face the challenge that Senator Lieberman talked 
about and that you talked about, to move quickly, but to do the 
right thing. Because we have had ``reform'' in this country in 
the past. We had the Church Commission and the Pike groups, and 
they reformed us to a point, I think, and then they limited our 
ability to do the right things, in the name of reform.
    And so we do face a challenge here, but I guess my 
reflection is to listen to citizens who--talking about foreign 
policy, the Iran situation, this report says Congress needs to 
follow up on that. I hope we do.
    I want to get back to the issue that Chairman Collins 
raised about civil liberties, and in particular I just want to 
talk about the Patriot Act, not a long discussion. But here is 
my question, and I am a former prosecutor. There are those 
things out there that we just have not taken care of, I mean, 
basic stuff out there. And that is part of your message. We 
have all of this stuff. What are we doing with it?
    But we are also, Ms. Fetchet, as you talked about, in a war 
right here. We know there are cells right here. We know there 
are folks who want to do bad things today. Part of that Patriot 
Act gives us the ability to do things that I, as a former 
prosecutor, used to be able to do with organized crime: The 
nature of wiretaps, and cell-phone technology.
    I just want to kind of get your sense, about the Patriot 
Act. Because there is this balance that we always hear about. I 
do not think pre-September 11 we could have done a Patriot Act. 
Is there a sense that we need to do more, in terms of our 
ability to figure out what is going on right here, right in 
this country today, and to give folks more power to do that? 
And, again, Ms. Breitweiser, your comment was if you let the 
public know, they will kind of do the right thing. Just a 
little further reflection on that issue.
    Ms. Fetchet. Well, I think, as Kristen said, if they know 
what the limitations are--I think we are living in another 
world, and I think our country really has to have a better 
sense of who is coming and going. I think INS was a big--well, 
it was a failure. Visas were processed that were not completed. 
I do not think that they had the resources that they needed. It 
seems like the people that are really going through the process 
in the right way are delayed. It is the ones that are coming in 
illegally that have more rights almost than we do as an 
American citizen.
    So I think to educate the public, to know what the 
limitations are with regard to the Patriot Act, but I do think 
we should begin by having a database and not reinventing the 
wheel. There is technology out there that can get you up to 80 
percent, and then modify the other 20 percent, rather than 
creating a whole new system. Three years later, I do not think 
we have a system in place.
    So I think that the real focus, my feeling is, should be on 
getting the information that we have up and running, and 
complement it by more information with some limitations.
    Senator Coleman. I raise it because my concern is for folks 
who are already here. They are here. Some may be coming, but 
they are right here, and they have been here a while, and we 
saw that on September 11. How we get to that and how we protect 
that.
    No one has mentioned the Department of Homeland Security. 
Reflections on what they are doing? Obviously, by not 
mentioning it, I sense the deep concern that what has gone on 
has not been sufficient, but just reflections on Homeland 
Security? Reflections on terror alerts? Can you respond to what 
you see going on there?
    Ms. Breitweiser. If I could just go back to what you were 
talking about, the Patriot Act, and then I would love to answer 
that question on DHS.
    You also mentioned in the beginning that you are from the 
middle of the country, and I think that even when people live 
in the middle of the country, if they drink water, eat food, go 
to malls or have planes flying over their home, they need to 
care about these issues. It is not just the people that live in 
the tristate areas or the big megalopolises, it is everyone, 
because you either will do one of those things or you will have 
a loved one that will do one of those things. I just wanted to 
say that.
    Senator Coleman. And I share that, absolutely.
    Ms. Breitweiser. Listen, I try to make that point all the 
time so people in the middle of the country who feel safely 
ensconced realize if you are eating food, drinking water or 
have planes flying over your head, you need to care about this.
    Having said that, with regard to the Patriot Act, I think 
that there needs to be an analysis. There needs to be proof 
that the Patriot Act to date would have made a difference on 
September 11, because our understanding from our research is 
that we already had enough information on these individuals. I 
think, like Mary said, I just want to reiterate, we have 
enormous sources of information that we are not even using 
right now. To set up the Patriot Act, which is giving access to 
things that we do not even need, because right now with all the 
information we have, we are not fully using it in an efficient 
manner. It just seems like what are we going to do with all 
this information? It is like a fire hose of information. As we 
have been told, on September 11 they could not make sense of 
any of it. Why are we enhancing the fire hose?
    I think you need to keep that in mind. I would like to see 
an analysis as to where exactly, specifically, with the 
information regarding the 19 hijackers on September 11 that the 
Patriot Act would have made a difference, because my 
understanding is that really it would not have made much of a 
difference.
    Your comment about the Department of Homeland Security. I 
think that certainly there is an awful lot of confusion with 
regard to the threat levels. I think that particularly, I think 
it was in June we had an incident, where DOJ, the Director of 
the FBI and Mr. Ridge, were apparently not all on the same page 
because someone thought we needed to go under alert, someone 
thought we did not. That is a problem. There is really no point 
in having a Department of Homeland Security if they are not 
going to be talking to DOJ or the Director of the FBI. I think 
that it is scary to hear the threat levels rise and fall, and I 
think we need to know that those levels are rising or falling 
for the right purposes and the right information, and again, 
you have to strike a balance.
    I think the Commission spells out that the Department of 
Homeland Security is not necessarily working as well as it 
could be working. It is a great idea, but especially Sally 
Reagan Hart could sit and talk to you all about local 
responders and how they need a lot more attention and a lot 
more priorities need to be set, and I think Department of 
Homeland Security could have played a big role in that in the 
past couple of years.
    Senator Coleman. Thank you.
    Mr. Push. With respect to the Department of Homeland 
Security, I support the Commission's recommendation that 
another look be taken at how funding is allocated to local 
areas, that is allocated based on threat rather than as some 
kind of a grant program. It is true, what Kristen says, that we 
are all at risk, but clearly, there are cities like New York 
and Washington that are prime targets, and the fact that New 
York could get lower per capita funding than more remote areas 
that are under less a threat is, I think, a mistake.
    Ms. Breitweiser. I just want to make it clear. I agree with 
Steve. I was just drawing the point that everyone needs to be 
interested in homeland security, but I think clearly we need 
someone to prioritize the funding.
    Senator Coleman. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Madam Chairman
    Ms. Breitweiser, in your testimony you have a paragraph on 
the first page which struck me. You say: ``We, as a Nation, 
should have made a historic reorganization of our domestic 
security structure a priority on September 12, 2001. Or, at the 
very least studied it more seriously. Yet nothing has been done 
or even seriously considered in this regard until now. Without 
doubt, the appointment of a NID in the next few weeks will not 
thwart the next attack. But, if a NID had been appointed 3 
years ago, we might have been in a safer position than we are 
today.''
    We are here because of this 9/11 Commission Report, and I 
am going to go out on a limb and tell you, we would not have 
this 9/11 Commission Report had it not been for you. Had the 
families of those who died on September 11 not been steadfast 
and resolute and demanding, this would have fallen apart a long 
time ago. There was resistance to creating this Commission. 
There was resistance to funding this Commission. There was 
resistance to extending the deadline for this Commission. Now 
when you hear this chorus of praise for the 9/11 Commission, 
you know better. There was a time when this was not a popular 
idea at all. And the reason it happened was because you stuck 
with it. Had you not done that, we would be off on our 
vacations in August as usual, but we are at work, as we should 
be, on a very important and critical national issue.
    We like to stand in judgment of the Executive Branch. I 
guess that is our role as an oversight committee. I would like 
you to stand in judgment of us. You have been on Capitol Hill 
now for a long time. You have been nudging and pushing and 
making your presence known to create this force. There have 
been press reports that some committee chairmen were hiding 
behind doors so that they could avoid you. [Laughter.]
    But you got the job done as American citizens, as you said, 
who came here with not just grief but a determination to get 
something done. What is your report card on Congress in terms 
of what we have done? I mean let us put it all on the table 
right here. What would you say needs to be done on Capitol Hill 
for us to do the right thing, the American thing, and follow 
through on these Commission reports? What is your greatest fear 
in that regard, Ms. Breitweiser?
    Ms. Breitweiser. I think your grade at this point is an 
incomplete, and I think that you are serving the summer recess, 
summer school. I really do, I think all of the families want to 
thank everyone for attending the hearings this summer. We are 
enormously grateful.
    But undoubtedly, Congress has a lot of work to do, and I do 
not think it just has to do with the Executive Branch agencies 
reorganization. I think Congress needs a reorganization. I 
think that the set-up of the Joint Inquiry, particularly when 
they looked into the attacks on September 11, where you had 
both houses, the Senate Intel and the House Intel together, 
working cooperatively to produce one product, I think that was 
a good setup. I know it is recommended in the Commission's 
report, and I would urge you to seriously contemplate doing 
something like that, because more than symbolically indicating 
and illustrating that everyone is working together. I just 
think on a realistic basis it is something that we could all 
stand to benefit from, was to combine the Intel Committees that 
they are working together.
    We cannot urge you enough to act, and not necessarily act 
in haste. Act with sound reform, because one of the things that 
I just do not get is all this talk about reorganization. I 
think that it is futile to reorganize the intel community if 
you are going to leave people in positions that failed in the 
years leading up to September 11 or the days before September 
11 or on the day of September 11. If you are going to leave 
those people in those positions and just reshuffle the boxes, 
then you are setting this reorganization, if it does happen, up 
to fail.
    Senator Durbin. Which was a point I tried to make in 
yesterday's hearing. Are we ready for reform? I mean can we 
pass a law that is really going to achieve real reform?
    In the New York Observer piece about your experience with 
the Jersey Girls going around to the FBI and all the different 
agencies, the fact that you are an attorney and you have some 
training and skills, I could tell from the questions that you 
asked and pressed on, that you were more successful than some, 
but I could also note some real frustration here. You felt like 
you were getting the runaround, that people there would not 
accept responsibility for reality.
    Ms. Breitweiser. I would say that I think I have acted like 
a lady, in that I have not really been very transparent in some 
of the behaviors and the tones and the attitudes of certain 
individuals, who are elected officials, and going forward, I 
will continue to act like a lady.
    Nevertheless, we have an American public who is enraged, 
outraged after reading this report. I know people that are just 
commonplace people, moms, they do not work, they are stay-at-
home moms. They cannot get past page 50 because they are 
shaking with anger that it was as bad as it was. I think that 
is something, the jig is up. Everybody is going to know, and 
there is going to be no more excuses. And I just urge you, 
because I will be a lady, but there are going to be other 
people that are going to want meetings, and they are going to 
walk out of those meetings, and they are not going to act like 
gentlemen and ladies. They are going to say exactly what went 
on.
    There are Websites currently being created by people like 
that who are saying things, that you cannot carry out and 
support national security on an ad hoc basis. You cannot call 
for the declassification of over classified material and then 
not support wholesome border security because it may affect 
your constituency.
    We need this to be a committed effort, and I want to 
believe it can be done, and I promise I will continue to be a 
lady.
    Senator Durbin. I hope you all will continue in your 
effort, and I thank you for it, and that noise, that pressure, 
that heat, is democracy. That is what it is all about.
    Ms. Breitweiser. I am not saying I will be a lady behind 
the scenes. [Laughter.]
    Senator Durbin. Thank you. I am sure you will. Thanks, 
Madam Chairman.
    Chairman Collins. Thank you. Senator Specter.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. Thank you very much for your very powerful 
testimony, and thank you for pursuing your advocate's role. You 
have a lot of people who are with you in this Committee and the 
Senate, and in the House and Congress generally.
    Madam Chairman, just for the record I want it noted that 
the reason I was not here yesterday was that I had 85,000 
notices for town meetings circulated in Pennsylvania on 
meetings which could not be postponed. I just wanted that noted 
in the record.
    You have put the case very powerfully, Ms. Fetchet, when 
you talk about inexcusable inertia, and, Mr. Push, when you 
have excellent testimony. I think the highlight was your 
sentence that ``What is at stake is nothing less than the 
legitimacy of the U.S. Government.''
    You are correct when you note that the U.S. intelligence 
community failed to capitalize on numerous opportunities to 
discover and disrupt the September 11 plot. As Ms. Breitweiser 
said about the same thing, the intelligence agencies did have 
enough information to stop the attack.
    All of that was put on the record in October 2002 when we 
noted the FBI Phoenix report about the suspicious man who 
wanted to fly a plane, learn how to fly, but was not interested 
in takeoffs or landings, and about the two al Qaeda people 
known to the CIA in Kuala Lumpur not told to the INS, and about 
Zacarias Moussaoui, where Colleen Rowley, the FBI agent, had a 
13-page, single-spaced memorandum.
    In this room, we had a hearing with FBI Director Mueller 
and found that the FBI did not use the proper standard for 
probable cause to get a warrant--just sort of incomprehensible. 
But notwithstanding that, we were not able, when that bill was 
passed restructuring homeland security, to put all of it under 
one command. We could not get that job done because of the 
entrenched opposition of the CIA and the FBI and the Department 
of Defense and their cultures of concealment and their ability 
to stop it.
    Now, the point was made by Ms. Fetchet that the legislature 
has failed to act on earlier recommendations to address the 
threat of terrorism, such as those from the Hart-Rudman 
Commission, the Gore Commission, and many others.
    I chaired the Intelligence Committee back in 1995 and 1996, 
and in a Senate bill, S. 1718, called for, ``enhancement of 
authority of the Director of Central Intelligence to manage 
budget, personnel and activities of the intelligence 
community,'' going right to the core of what the 9/11 
Commission has asked for. Then we had a cross-reference. It 
went to the Armed Services Committee and they cut it to 
ribbons.
    I ask, Madam Chairman, that this bill be made a part of the 
record.\1\
---------------------------------------------------------------------------
    \1\ A copy of S. 1718 from the 104th Congress submitted by Senator 
Specter appears in the Appendix on page 66.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Specter. Two weeks ago, I circulated a bill to 
establish a national director and to put under that director--
and I would ask that this be made part of the record, too, 
Madam Chairman.\2\
---------------------------------------------------------------------------
    \2\ A copy of S. 2811 submitted by Senator Specter appears in the 
Appendix on page 143.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Specter. To put the FBI counterintelligence out of 
the FBI, put them under the national director; the same thing 
for CIA foreign intelligence. We do have to look at the 
tactical issue, but I think we can solve that as well.
    Senator Roberts, the Chairman of the Intelligence 
Committee, is about to file a bill, and a few of us are about 
to introduce for the record the 9/11 Commission bill. So there 
will be plenty of bills to start the markup and to make 
decisions that we have been studying for a very long time.
    The Scowcroft Commission has an excellent report. We are 
not short of reports and we are not short of debate and we are 
in a position to move. And it is my hope that we will start the 
process and mark up in September and work on a bill before we 
adjourn for the election. But that is going to be difficult 
unless we get started very early because in late October people 
are looking at the election. But your words today are very 
forceful.
    There are two questions I have for you where I am thinking 
in a different direction from the 9/11 Commission and would 
like to know your thinking, because you have demonstrated a lot 
of insight and a lot of work here.
    One question goes to the idea of a 10-year term. The bill 
which I have drafted calls for a 10-year term for the director 
so that we insulate as much as possible the director from 
political influence. The precedent would be the FBI Director.
    The second point where I diverge from the 9/11 Commission 
is the idea of double-hatting. For example, they want to leave 
counterintelligence in the FBI, to report to the Director of 
the FBI, and also to report to the national intelligence 
director. I have grave doubts that can be done, to have double 
reporting. My thought is to take it out of the FBI and have 
them report just to the National Intelligence Director.
    I would be interested in all three of your comments on 
those two points. Ms. Fetchet.
    Ms. Fetchet. The first one--refresh my memory because I am 
focusing on the second one.
    Senator Specter. The 10-year term for the National 
Intelligence Director.
    Ms. Fetchet. The 10-year term. I think one thing, like 
Steve brought up, was the issue about transition from one 
administration to the other. So I think in terms of a longer 
term, I think that would be very important, and to time it so 
there is not a gap when there is a change or a possible change 
in administration.
    I think to keep it non-political is going to be very 
important, and so to sort out how can you best address those 
issues. I don't know, during a transition, if maybe Congress 
gets sort of focused when there is a transition on 
reorganizing, and maybe Congress should, in a sense, be really 
focused on the transition and making sure that legislation is 
passed, that deadlines haven't elapsed, and that there is some 
follow-through from one administration to the other. So I think 
the transition is a huge thing with regard to the term.
    The principal meetings which they used during the Clinton 
Administration, but there wasn't as much focus on during the 
Bush Administration, I think, are an important aspect to pull 
those people together so they are all on the same page. That is 
how I would respond to your second question.
    Senator Specter. Mr. Push.
    Mr. Push. On the first issue on the 10-year term for the 
director, I agree with your concern about keeping the 
director's position non-political, and I think we should find 
ways to do that. However, the National Intelligence Director is 
going to have to have a very close relationship with the 
President, a relationship based on trust, and it is hard for me 
to see how that can happen unless that person serves at the 
pleasure of the President.
    On the other issue, the double-hatting issue, I have long 
felt that the FBI is not really the right place for a domestic 
intelligence agency. I know that the Commission decided to keep 
it in the FBI, recommended keeping it in the FBI, and I know 
there have been arguments that the FBI already has a well-
developed investigative function that could be capitalized on.
    We certainly don't want to go and create something anew 
that already exists, but I see no reason why whatever the FBI 
has been able to build in that area, in the domestic 
intelligence area, can't be transferred to another department. 
For example, the Coast Guard was transferred to the Department 
of Homeland Security and I haven't seen the Coast Guard miss a 
beat on any of its responsibilities.
    Senator Specter. Ms. Breitweiser.
    Ms. Breitweiser. With regard to the 10-year term, I think 
it is a no-brainer. I think that really you need to make sure 
more than anything that a NID, if the position is created, is 
insulated from politics and policy. More than that, we have to 
be able to trust this individual. We need to have confidence in 
them.
    Rather than worrying about a 10-year term, I think you 
should be more worried about who you are going to find. But I 
think a 10-year term is very important. I think it works very 
successfully with regard to the FBI, and I think there is a 
very steep learning curve. There is a lot to learn in this 
position. It is an incredible job description, and we don't 
want a revolving door. We want some sort of continuity and we 
want to give the person the time that they need to really 
develop long-term strategies, because I think that is what we 
have really failed to have.
    We did not have long-term strategy. If you read the 
Commission's report, there is much information about George 
Tenet going from operation to operation. When it was over, that 
was it; we moved on. We took care of the next threat. We need 
to make sure that we have a long-term strategy, and the way 
that you do that is by putting someone there who will have the 
time to develop that long-term strategy, who will have an acute 
memory, who will not forget things. I think it is a very wise 
decision to have a term like that, in my humble opinion.
    With regard to the FBI and double-hatting, I am no expert, 
and I think really what you should probably do is have a 
meeting with the actual agents, the analysts, personally and 
see what they think. We could sit and listen to everyone at 
headquarters and all of the head honchos, and you are not going 
to get the story that the guys in the field and the women in 
the field are going to give you.
    They are the ones you should listen to because they are the 
ones who will tell you the truth. They will tell you, look, I 
am not going to do something like that because I won't raise 
myself in the FBI; I am going to be set back by that; I have a 
family and kids to support. You really should listen to the 
rank-and-file. Their hearts are in this and they have an 
enormous amount of information that is yet to be tapped. I 
really would encourage you with regard to that question to ask 
the people in the lower ranks. They will have a lot to share.
    Senator Specter. Thank you very much, Ms. Fetchet, Mr. 
Push, and Ms. Breitweiser. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Madam Chairman.
    To each of you, thank you for being here with us today. I 
can't imagine what you have suffered in the last 2 or 3 years. 
Thank you for not just dwelling on that sorrow, but for using 
it to transform it into something positive, I hope, for you, 
and I am sure for our Nation.
    Senator Durbin earlier held up a copy of the 9/11 report 
and he said we wouldn't have this report were it not for your 
efforts and the collective efforts of others, thousands of 
families that you represent here today. He is absolutely right.
    A friend of mine who is a pastor of a church in Wilmington, 
Delaware--I am from Delaware--likes to say it is not how high 
we jump up in church that counts; it is what we do when our 
feet hit the ground.
    We are having a lot of hearings; I think it is great that 
we are. I want to commend our Chairman, and certainly Senator 
Lieberman for pulling us all together not once, not twice, not 
three times, but four times during an August recess, which is 
rather extraordinary. I have only been here 3\1/2\ years, but 
it is extraordinary certainly by my standards, and I think by 
most people's standards.
    I am encouraged that we are not just going to jump up in 
this church today, but when our feet hit the ground and the 
television cameras go away and we have the tough work of 
figuring out how to craft legislation that we will actually do 
it.
    Having said that, Senator Lieberman worked real hard on 
creating the Homeland Security Department. It took a lot of 
time and a lot of effort, and I don't know that he ever got the 
kind of commendation and thanks for all of his efforts, but he 
certainly has mine.
    Senator Collins and I have been working for about 3 years 
on postal reform legislation, and we have a bill that has been 
approved unanimously by this Committee, with bipartisan 
support, to say what kind of postal system we are going to have 
in this country in the 21st Century. Similar legislation in the 
House passed unanimously out of committee, and it is not 
altogether clear whether or not something that enjoys unanimous 
support in the House and the Senate is actually going to be 
signed into law. It is just tough to get anything done around 
here.
    I guess as I thank you, on the one hand, for the remarkable 
tenacity and devotion you have brought to this important cause, 
I would just ask you not to relent or not to let up. In 
football jargon--and I know it is still baseball season and we 
are getting some exhibition games going, but in football 
jargon, we have the ball, we have possession of the ball, we 
have gone across the 50-yard line and we may be inside the 20, 
but we are not in the end zone. We need your help and your 
effort and your energy to continue to push us to get there.
    Mr. Push, I appreciate what everyone has said, but I want 
to come back to something that you said. I don't think I heard 
it from anyone else, and I am going to ask you just to revisit 
it and then I am going to ask our other two witnesses to 
comment on it.
    Let me paraphrase what I understood you to say. It is 
important that we adopt a number of the changes recommended by 
the 9/11 Commission with respect to our intelligence 
functions--the way we function, the way we organize, the way we 
operate, how we hold people accountable. That is important. It 
is important that we act militarily to go after and flush out 
sources of danger, folks that pose threats to us.
    But I think you also said that as important as the 
intelligence work is and as important as the military work is, 
if we forget about the minds of millions of people around the 
world who have come to hate our country, we have not completed 
the job. In a way, we will have dealt with the symptoms, but 
maybe not the root cause.
    Would you just revisit briefly what you said? And then I am 
going to ask both Ms. Fetchet and Ms. Breitweiser. I am going 
to ask each of you to comment on that aspect of his testimony.
    Mr. Push. In response to your question, I said that I felt 
that we should pay more attention to the specific 
recommendations that were made with regard to public diplomacy 
and, as you pointed out, developing allies around the world, 
but also developing allies within the Muslim world to create 
opportunities for better dialogue with the vast majority of 
moderate Muslims, to improve our relationships with countries 
like Saudi Arabia so that they are not based only on selling 
arms and buying oil.
    There is a reason why al Qaeda has fertile ground to 
operate in, and unless we change those reasons, our children 
and our grandchildren are going to be fighting this battle in 
the future. I think while the NID and some of the other 
recommendations that are made are the more urgent ones, the 
ones that need to be acted on quickly, I think the more 
fundamental ones, the ones that are going to really win the war 
on terrorism are the ones that are going to change the hearts 
and minds of people who create young men who want to come and 
crash planes into buildings in our country.
    Senator Carper. Mr. Fetchet.
    Ms. Fetchet. I would agree with Steve. I think our foreign 
policy is really the core of the threat of terrorism, and I 
think that we have to reach out to other countries. We have to 
develop an understanding of their culture, their religions, and 
their beliefs. Many times, maybe we have to back off and we 
can't dictate what women's rights should be or how they should 
run their country.
    I think that we had such an outpouring after September 11. 
I have a husband that travels internationally and I am very 
concerned about him traveling. He has developed individual 
relationships with people in many of these countries, but for 
the most part people don't respect Americans. They think that 
we are arrogant. They think that we are trying to dictate the 
world, and I have a concern about that.
    I think that we have to develop some respect for people of 
other cultures and we have to understand those cultures to know 
really what our relationships should be. So I think we can 
continue to build walls around our country, and certainly we 
have to make our country secure. But to really address the core 
of terrorism, we have to develop better relationships and 
respect for people from other countries.
    Senator Carper. Thank you. Ms. Breitweiser.
    Ms. Breitweiser. I think Mary and Steve said everything. I 
would just like to add that it is upsetting to hear from one of 
the Senators from before that we can't do both; we can't 
protect the boots on the ground and fix our intel community.
    I think when you read the report, they say harden the 
homeland, continue the situation we are in now with regard to 
striking out. And, in addition, we need to get at the root of 
the problem. Just on a basic level, I am a big believer in 
education and I think that it has to be done wisely. You 
cannot, as Mary said, go into a Nation and trample them and 
drop propaganda everywhere and say this is what you should 
believe.
    We need to really work on our reputation, and the bottom 
line is these people hate us and they want to kill us. We 
cannot handle that situation in a one-track way. We need a 
multi-track approach and I think the Commission does a good job 
in setting that out.
    Nevertheless, it is going to take a prioritization and we 
are going to have to find funding for that. Rather than 
discussing whether or not we should--I said to one of the 
Senators last week that I know you all mean business when you 
start setting out the funding. When you start discussing the 
budget and where it is coming from and how it is going to be 
paid, that is when, in my opinion, I realize that we are 
getting down to business.
    I think, though, that really we need to fight this new 
enemy in a multi-pronged approach, and I think we should not 
just be focusing on Muslim radicals. We have other groups that 
are not metasticizing and sort of following along in other 
areas of the world. I think we need to be patently aware of 
those groups, too. It is not just about Muslim radicals. It is 
about a whole host of people that we have offended through 
years of behavior that we really need to take a multi-track 
approach at, and one of those ways is by reestablishing our 
respect in the world. To do that, you need to respect others. 
It is a two-way street.
    Senator Carper. Thank you very much.
    Chairman Collins. Thank you. Senator Mikulski, welcome.

OPENING STATEMENT OF SENATOR MIKULSKI, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Mikulski. Thank you very much, Chairman Collins. I 
want to thank you and Senator Lieberman for inviting me today 
to participate. We appreciate your collegiality and your 
graciousness.
    As a member of the Intelligence Committee, I want to pledge 
to you as the team that will be putting together the bill our 
utmost support and collegiality to make sure our war is against 
terrorism and not about turf. So we want to thank you for that.
    We want to thank the 9/11 families who are here today, and 
all of those other families that you represent that would like 
to be here today. We thank you for being their voice.
    We remember and honor the memories of the loved ones of the 
3,000 people who lost their lives on that horrific day. I am 
here as a member of the Senate Intelligence Committee committed 
to reform, but I am also here as the Senator from Maryland. We 
lost 60 people that day.
    I am honored to be here to interrupt my Senate recess. I am 
happy to be here today to hear you. I am happy to be here 
tomorrow when I listen to testimony at the Intelligence 
Committee. I am ready to cancel the whole summer recess so that 
we can move on reform. How about moving on the homeland 
security appropriations bill that is just floating like a 
feather in the Senate ethers right now? So we are ready to move 
and I am ready to come back if we need to. That is the kind of 
urgency we need to feel.
    Why do I feel so strongly? We know about your loss and 
about the loss in New York, New Jersey, and Connecticut, but we 
in the capital region lost people that day, too. Sixty 
Marylanders died mostly at the Pentagon. They came from all 
over Maryland, but 24 of the 60 came from one county, Prince 
George's County. Most of them were African American. Many of 
them were women, like Odessa Morris, who had just celebrated 
her 25th wedding anniversary. Max Bielke, working in financial 
services, was the last soldier to leave Vietnam. Leslie 
Wittington and Charles Falkenburg were academics who, with 
their two children, were on their way to a sabbatical. Adam 
White, a career worker at Cantor Fitzgerald. Darin Pontel, just 
out of the Naval Academy, with his brand new bars, working at 
the Pentagon. One of my own Senate staff lost someone who was a 
police officer at the World Trade Center. So we feel very 
strongly about that, we in the capital region.
    So this is why we are committed to listening to you. We 
want to thank you for what you have done because in your own 
unflinching and unflagging way you helped create this 9/11 
Commission. We thank you because the Commission could do in the 
sunshine what we in the original intelligence inquiry had to do 
in a classified way. So the Commission could build on our work 
and be able to function. We think the Commission did a 
fantastic job with integrity, independence, and intellectual 
rigor.
    So where are we now? I believe we need to focus on the 
three Rs--reform, resources and being relentless to accomplish 
both. Let's practice the three Rs.
    They talked about the surprises. I will never forget being 
in that committee, when I realized that of the 19 terrorists, 4 
were stopped by local enforcement, 1 in my own State. When they 
put the guy's name in the computer, there was nothing that came 
out. We know more about deadbeat dads and their child support 
than those who are trying to come into the country to kill us.
    When they gave us the Phoenix memo, I put my head down on 
the table and wept about a missed opportunity. But it is not 
time for tears; it is time for action. This Commission calls 
for 41 recommendations; 16 the President could do right now; 9 
the President could do with funding, and we could pass our 
appropriations by October 1. I am on the Appropriations 
Committee. I know that where there is a will, there is a 
wallet. Sixteen recommendations call for congressional action. 
This is why I feel so strongly about this.
    Now, after all of your days and months of speaking truth to 
power, I want to talk about truth and about power. When all is 
said and done, more often gets said than done. So my main 
question to you is, would you support some type of mechanism to 
stand sentry over the Executive and Legislative Branches, 
scorecarding us through benchmarks on how we implement the 
reforms of this Commission?
    Have you considered this? What would be your thoughts? What 
would be your recommendations, so that we speak not only truth 
to power, but we have to understand the truth about power, 
which is no one likes to give it up?
    Ms. Breitweiser. I would say first I would encourage you to 
visit our website and that report card is underway. I would 
also note that a number of news programs, both cable and local, 
do a little thing at some point in the show where they say 
number of days 9/11 Commission report released, number of 
things acted upon, zero.
    It started out on just a couple of channels and now it is 
making its way onto a number of channels. It is my favorite 
part of the viewing process. Everyone shakes their heads. The 
newscasters are hysterical. They say number of days the report 
released, number of recommendations implemented.
    Senator Mikulski. Kristen, that is voluntary, and three 
cheers for that. But I am talking about this Congress passing a 
legislative framework with appropriate funds that would extend 
a form of the 9/11 Commission for monitoring the implementation 
of the reforms. It would be organized, it would be systematic, 
it would be mandatory, and it would be in the sunshine.
    Ms. Breitweiser. I think it is an excellent idea. My only 
concern is that it has to stand away from Congress. You cannot 
have elected officials. You need to have independent people. It 
has got to be bipartisan. I think undoubtedly that is an idea 
that is an excellent idea.
    Unfortunately, I have spoken to some of the commissioners, 
because I know the topic was broached by someone recently. I 
don't know if they are necessarily interested in doing 
something like that. You would have to speak to them directly, 
but I think we see the benefit of this Commission.
    I think one of the commissioners testified last week or the 
week before and said you should have seen these people when our 
staff went in and started doing interviews; you should have 
seen when we entered the room. I mean, they were worried. 
Agencies that for years have intimidated or sort of let people 
know, don't muck around with us, were scared.
    There is a value in that because we know that we can stay 
on top of things now. I think one of the greatest things this 
Commission did is that it has shed sunlight onto intelligence 
agencies that for years stayed in the dark, in a shroud of 
secrecy. I think the 9/11 Commission speaks to the damage that 
keeping these things in the dark results in. I think it is a 
great idea. I would recommend looking into it.
    Mr. Push. I would agree. Again, as Kristen stated, it needs 
to be, like the independent Commission, independent, 
bipartisan. The cost of doing something like that is so small 
compared to the amount of money we are talking about investing 
in intelligence and border security and homeland security, to 
have someone independent looking at that and making sure that 
the public knows how we are being served.
    That was one of the lessons for me from September 11. The 
fact is I didn't know a lot about this before September 11. 
There were other commissions out there that had reported and it 
had gotten very little press coverage, and I was quite ignorant 
about things I should have known. I think that would be a great 
public service to provide an independent commission like that.
    Ms. Fetchet. I would agree with what Steve and Kristen 
said, but I think I would defer to the commissioners if it 
should be something that is legislated and funded by the 
government. I know Governor Kean has talked about raising 
public funds, and in that sense I think he would feel that the 
Commission was more removed from the government.
    Senator Mikulski. You mean private funds?
    Ms. Fetchet. Private funds, yes. I am sorry. I know that he 
was pursuing private funds to fund the oversight, but when I 
think about the last 3 years, I think we, in a sense, have 
become an oversight committee. I know I have received some 
information that I have forwarded from an office in the House 
to an office in the Senate, and vice versa.
    So I think, as Steve said, we weren't aware of the previous 
commissions. The public, like I was before September 11, is 
typically not involved in the process, and I think that has 
been something that has been a life lesson to me. But I hope 
other Americans do as well, participate in the democratic 
process. You can't assume anymore that things are being done in 
your best interest.
    I think to have a relationship with your Senator and 
Congressman to talk to them about what your concerns are--that 
educates them and their office on how they should pursue 
things, what stand they should take, what your concerns are. I 
think it is a two-way process, and that we can't assume that 
you can make decisions without information from your 
constituents.
    So I would be in favor, to answer your question, of 
oversight because I think that is where you fell short on these 
other commissions, that they were just done and they sat on a 
shelf. There was no oversight, and so other things came up that 
became a priority that shouldn't have been. I think in this 
case, this report is public and it is educating the American 
public about changes that have to be made.
    Senator Mikulski. Thank you. I know my time is up.
    Chairman Collins. Thank you. Senator Clinton, welcome.

 OPENING STATEMENT OF SENATOR CLINTON, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Clinton. Thank you so much. I particularly want to 
thank the Chairman of the Committee, who has done extraordinary 
work along with her Ranking Member. Both of you deserve a great 
deal of gratitude not only from those of us in the Senate, but 
everyone else who cares about these issues. Of course, I want 
to thank our witnesses.
    There are other family members and advocates in the 
audience today, Madam Chairman, and perhaps if it would be 
appropriate, could we have them just raise their hands or some 
way of being acknowledged, because so many of them have gone 
the extra mile time and time again on behalf of these issues 
and I know we are all very grateful to them?
    [Several members of the audience raised their hands.]
    Senator Clinton. I think that the testimony illustrates 
clearly the need for us to act in a comprehensive way on all of 
the recommendations because they are interrelated. It is 
difficult to imagine that we will have a successful reform 
without looking at public diplomacy, border security, a 
counterterrorism center, all of it together. So I appreciate 
the comprehensive look that this Committee is providing.
    But I think it is also fair to say that our biggest 
obstacle will be the Defense Department. I, like some of my 
colleagues, will be leaving shortly to go to an Armed Services 
Committee that is currently hearing from Secretary Rumsfeld, 
General Meyers, and John McLaughlin, the Acting Director of the 
CIA.
    As we heard from Senator Specter, as numerous commissions 
and reports have pointed out, the effort to try to create some 
overall intelligence apparatus runs afoul of both the 
legitimate concerns of the Defense Department about tactical 
battlefield intelligence and the desire to basically continue 
to control 80 to 85 percent of the budget and call the shots as 
they wish.
    Yesterday, it was clear in the Armed Services Committee 
hearing that was held with three former members of the Defense 
Department, CIA and other distinguished positions that time and 
time again, the CIA Director, whoever it was, has basically run 
into a brick wall. You can declare war on al Qaeda, as George 
Tenet did, and nobody can know about it, and you can have 
previous efforts to try to consolidate the intelligence 
functions and to create some accountability and it doesn't get 
done.
    Now, I will be leaving to go to this hearing and I want to 
ask each of you if you have any questions for Secretary 
Rumsfeld, General Meyers, or John McLaughlin, because I will 
ask them when it is my turn. I think that really goes to the 
heart of whether we are going to be successful or not because 
any Secretary of Defense is extraordinarily powerful and is due 
a lot of deference because of his position. But it has been 
time and time again the place where good ideas about 
consolidating the intelligence functions and creating a better 
mechanism for sharing that information basically go to die.
    So I would like to ask each of you if you have questions 
you would like me to pose to any one of these three gentlemen. 
Does anyone want to start? Kristen.
    Ms. Breitweiser. It is my limited understanding that one of 
the reasons why this idea of a NID has not happened in the last 
15 or 20 years is because of DOD and various Secretaries of 
Defense.
    I think undoubtedly no one wants to harm or in any way put 
in jeopardy the boots on the ground, but I think it is 
unacceptable for us to not expect a department like the 
Department of Defense to be able to adequately, and above 
adequately take care of the boots on the ground while at the 
same time reorganizing their department, their intelligence 
agencies, and work with all of the other agencies involved to 
get this structure set up and going.
    To say that they can't do two things at once is 
unacceptable because al Qaeda is doing about a hundred things 
at once. And in addition to al Qaeda, there are other groups 
doing things. We no longer can accept that excuse from DOD 
because, going forward, we don't know if there will ever be a 
time that we will not have boots on the ground. So if we are 
not going to do it now, then when are we going to do it?
    I would reiterate what I said. You need to fix the intel 
community because if the intel community does its job right, we 
don't necessarily need to get to the boots on the ground. I 
don't understand the failure. We had the embassy bombings, the 
Cole bombing. We had September 11. I don't understand how that 
doesn't warrant someone saying, look, this is a broken system, 
it is not working effectively, we need to do this and we need 
to do it now.
    I am very sympathetic to individuals that are going to have 
to lose a lot of their budget. Nevertheless, someone has got to 
take a good, hard look at how DOD is handling these budgets, 
and it is going to have to change because there is always going 
to be a war. We are always going to have people on the 
battlefield. That is the nature of the world we live in today. 
Like I said, al Qaeda is not taking a rest and we need to 
accommodate that fact.
    Senator Clinton. Thank you. Mr. Push.
    Mr. Push. Senator Clinton, I would ask Secretary Rumsfeld 
to imagine for the sake of argument that there is a national 
intelligence director along the lines proposed by the 9/11 
Commission. Under that assumption, what assurances would he 
need to ensure that the military received the tactical 
intelligence that they needed to continue to be effective and 
protect the war-fighters?
    Senator Clinton. Thank you.
    Ms. Fetchet. I would agree with what Kristen and Steve 
said. But, in addition, I would like to know--there really 
wasn't a reaction on September 11 and I would like to know what 
were the protocols on September 11 with regard to the military 
and NORAD, and compare that to the changes that they have made 
hopefully today, because it is our understanding that NORAD was 
in a Cold War mentality and that despite knowing the threat of 
terrorism, their main priority was illegal drugs.
    So it is hard for me to understand how somebody that is 
responsible to monitor our air space did not react on September 
11, flew 40 miles away from NEADS itself, flew about 60 miles 
away, some of these planes, from Camp David and weren't 
intercepted. So I would like to know what the protocols are. 
Without a shoot-down order, what are the protocols?
    I am concerned after attending that hearing yesterday that 
I do feel that people are digging in their heels and that they 
aren't open, particularly DOD, to change or giving up either 
funding or power. I think we need an accounting for where this 
money is being directed, and I would like to understand what 
their priorities are and have an understanding on what their 
focuses are and where this funding is going because I don't 
think that they have ever had to account for their funding.
    Senator Clinton. Thank you very much.
    Chairman Collins. Thank you.
    Senator Lieberman. Madam Chairman, may I just echo what you 
said earlier? Senator Nelson has really been remarkable in this 
series of hearings. As is well known, he doesn't live next 
door, so he has come up here from Florida as a real expression 
of his support for the Commission report and his interest in 
learning from the witnesses, and I am very grateful to him for 
that. He has done something else in the three previous hearings 
that Senators don't normally do very well. He just sat and 
listened, and I have sure learned.
    Thank you, Senator Nelson.

 OPENING STATEMENT OF SENATOR NELSON, A U.S. SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Nelson. And I will be returning this afternoon to 
our most recent version of Ground Zero, which is Punta Gorda, 
Florida, where I was over the weekend, where we have another 
disaster, but nothing of the magnitude that you all had 
suffered through. That is why I am here.
    Like Senator Mikulski, there were Floridians that were 
affected. I can name a few: Petty Officer First Class Johnny 
Doctor, from Jacksonville, and he was in the Pentagon; Stephen 
Philip Morris of Omond Beach, and he was in the World Trade 
Center; Timothy Grazioso, from Gulf Stream, also in the World 
Trade Center; and C.C. Lyles, from Fort Myers, not far from 
where the hurricane entered the coast. She was a flight 
attendant on Flight 93 that ended up in Pennsylvania.
    I am going back to the same hearing where I have been 
listening to the Secretary of Defense, and I will backstop 
Senator Clinton on some of those questions. But one thing I 
wanted to get some further commentary from you on as a result 
of your comments with Senator Mikulski is yesterday in the 
Commerce Committee when we had the Chairman and Vice Chairman 
of the 9/11 Commission, they were remarking ruefully that in a 
week the Commission evaporates because the funding runs out.
    They were talking about how they are going out and doing 
all this private financing, and several of us were lamenting 
that fact. Thank goodness that you all pressed to get the 9/11 
Commission, and then you have pressed to have them heard and 
now they are going to disappear, except for private funding.
    Madam Chairman, I went up to Chairman John McCain and 
proffered the idea that since most of their staff is going to 
disappear after next week, at least the essential staff want to 
continue to assist the Chairman and Vice Chairman and other 
members with the private financing.
    One thing that we could do immediately is, through some 
Federal rule, allow that staff to continue its Federal 
benefits. Many of them are already Federal employees and have 
been for the last year. Health insurance clearly is one 
incentive, and maybe some of the best staff in order to protect 
their families need that protection and might not continue on. 
That is at least something that we could do. So Chairman McCain 
seemed to be quite interested in that. We are working together.
    I offer it to you for your and Senator Lieberman's 
suggestions.
    Chairman Collins. The Senator may be interested to know 
that Senator Lieberman and I have hired four of the Commission 
staffers to work with us until we complete the legislation. We 
are also working very closely with the top two staffers, but we 
have actually brought on to our staff in non-partisan positions 
four of the very senior staffers. So we are doing our part and 
they have been extremely helpful as we have been going forward.
    Senator Nelson. Will that staff be working for you?
    Chairman Collins. Working for the Committee.
    Senator Nelson. Well, I think that is illustrative that 
where there is a will, there is a way. Now, I am talking about 
so that the important staff can continue with Governor Kean and 
Congressman Hamilton to give them the support that they need, 
as they are going to continue to press the case along with the 
families. I would like you to put on your thinking cap and see 
if we can't come up with a solution, and Senator McCain seems 
to be very willing to do this.
    Chairman Collins. Thank you for that suggestion.
    Senator Nelson. I want to raise two other issues, and it is 
more for us than for you all because, Madam Chairman, one of 
the strongest suggestions to come out of the 9/11 Commission 
report is that we have to get our house in order here with the 
congressional oversight.
    A good example occurred yesterday in the Commerce 
Committee. The number two person at the Department of Homeland 
Security was there and was defending the review that has taken 
4 months of whether or not butane lighters ought to be allowed 
on aircraft. They are now, and this was right after Governor 
Kean had testified about the fellow Reid who got on the flight 
that was coming across the ocean, and had he had a butane 
lighter--the flip thing--instead of a series of matches, he 
would have been able to successfully detonate that shoe bomb. 
Yet, today we allow butane lighters.
    We have been pressing the Deputy Secretary of Homeland 
Security for 7 months, and so the question was raised and it 
was raised in a bipartisan fashion. So when it was my turn, I 
said, Mr. Secretary, you have heard Governor Kean say that one 
of the biggest things we have to do is have vigorous 
congressional oversight; you have heard the comments of this 
committee in a bipartisan fashion. Now, listen to the 
congressional oversight and start paying attention, and listen 
to the congressional direction: Get rid of the butane lighters.
    I said this in a friendly way, but I also said it in a 
rather firm way, and I think it is beginning to get across. It 
is like us sitting in the Armed Services Committee with 
Secretary Rumsfeld and others--and I am not saying this in a 
partisan way, but so often we get the feeling that they don't 
care a wit about what our oversight is. You know the non-
answers that we get up there in S407, in the secure room.
    So we have to start asserting our constitutional role as a 
separate branch of government that is necessary for checks and 
balances for this government to function like it should. 
Otherwise, you run into the problems that we see.
    The final thing that I would mention is something else that 
came out of Armed Services yesterday. We paid a lot of 
attention to structure and analysis and collection and 
reorganization, and so forth. But somewhere along the line, we 
have to start paying attention to how personalities affect the 
analysis and the dissemination of intelligence information; in 
other words, leadership.
    I don't have any magic bullet for this, but I am surely 
raising the issue. If we are going to get clear, unvarnished, 
timely and accurate intelligence, which is the only way for us 
to protect ourselves from the terrorists, then clearly that 
issue of personalities has got to be discussed and handled.
    So that is my comment to your hearings, and thank you for 
letting me sit in on all these hearings over the course of the 
last 2 or 3 weeks.
    Chairman Collins. Thank you for your contributions.
    Let me close this hearing today by thanking not only our 
witnesses who were so eloquent and well-informed in their 
presentations to this Committee and who gave such powerful 
statements to us, but also all the family members who are here 
today.
    I was intending to at the end of the hearing do exactly 
what Senator Clinton has already done by recognizing you and 
thanking you for being here. You are the reason that we are 
here today, and that is why Senator Lieberman and I felt so 
strongly that, in addition to hearing from government officials 
and the official experts, we wanted to hear from the family 
members.
    Your personal tragedies motivate us, your expertise and 
your knowledge inform us, and your efforts give momentum to the 
cause that we have all embraced. Please be assured that all of 
the Members of this Committee are working hard in a bipartisan 
way. Senator Coleman has been here at every one of our 
hearings. We are all working together to produce a bill as 
quickly as we can.
    I know for many of you it feels like it should have been 
done yesterday. Believe me, this is an extraordinarily rapid 
path that we are on. We have held a number of hearings. We need 
to hold more, but we are committed to reporting a bill, and I 
hope that we can get unanimous support, or close to that, for a 
bipartisan bill that we will report next month.
    The Senate leaders have committed to us to expediting that, 
and our goal is to get it signed into law as soon as possible 
because as soon as we get started on these fundamentally 
important reforms, the safer our Nation will be.
    As we continue to make progress toward this goal, I want to 
tell you that your testimony and your tragedies will always be 
part of me; that what you have told us today will help us 
accomplish the goal that we all embrace. So I thank you so much 
for being here today. You really are making a difference. Out 
of your unspeakable tragedies, I believe a great good will come 
for our Nation, and I thank you for that.
    Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chairman, for that 
statement and for your leadership.
    I want to say to the three of you how moved I was by your 
testimony. I will say as your friend, and in one case as your 
Senator, I am proud of you. It was very powerful. Too often, 
progress is not easy here. You have all said that in different 
ways. It is a lot harder than it should be, but at no point did 
you or the others in the family member groups accept no for an 
answer. That is why the Commission was adopted, that is why the 
report is here, and that is why, with your help, we are going 
to adopt the recommendations of the report.
    There is going to be resistance. This Commission has 
recommended bold change. It is critically necessary, but that 
is no guarantee that it is going to get adopted because people 
don't like change. People don't like to lose power, but it has 
to happen for the greater good.
    I can't thank you enough. Let's stick together, and we are 
going to get this done. We are not only going to thereby make 
the American people safer, but we are actually going to prove 
that the American governmental system can still work, and that 
is a big accomplishment.
    God bless you. Thank you. See you soon.
    Chairman Collins. Thank you.
    This hearing is now adjourned.
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5509.001

[GRAPHIC] [TIFF OMITTED] T5509.002

[GRAPHIC] [TIFF OMITTED] T5509.003

[GRAPHIC] [TIFF OMITTED] T5509.004

[GRAPHIC] [TIFF OMITTED] T5509.005

[GRAPHIC] [TIFF OMITTED] T5509.006

[GRAPHIC] [TIFF OMITTED] T5509.007

[GRAPHIC] [TIFF OMITTED] T5509.008

[GRAPHIC] [TIFF OMITTED] T5509.009

[GRAPHIC] [TIFF OMITTED] T5509.010

[GRAPHIC] [TIFF OMITTED] T5509.011

[GRAPHIC] [TIFF OMITTED] T5509.012

[GRAPHIC] [TIFF OMITTED] T5509.013

[GRAPHIC] [TIFF OMITTED] T5509.014

[GRAPHIC] [TIFF OMITTED] T5509.015

[GRAPHIC] [TIFF OMITTED] T5509.016

[GRAPHIC] [TIFF OMITTED] T5509.017

[GRAPHIC] [TIFF OMITTED] T5509.018

[GRAPHIC] [TIFF OMITTED] T5509.019

[GRAPHIC] [TIFF OMITTED] T5509.020

[GRAPHIC] [TIFF OMITTED] T5509.021

[GRAPHIC] [TIFF OMITTED] T5509.022

[GRAPHIC] [TIFF OMITTED] T5509.023

[GRAPHIC] [TIFF OMITTED] T5509.024

[GRAPHIC] [TIFF OMITTED] T5509.025

[GRAPHIC] [TIFF OMITTED] T5509.026

[GRAPHIC] [TIFF OMITTED] T5509.027

[GRAPHIC] [TIFF OMITTED] T5509.028

[GRAPHIC] [TIFF OMITTED] T5509.029

[GRAPHIC] [TIFF OMITTED] T5509.030

[GRAPHIC] [TIFF OMITTED] T5509.031

[GRAPHIC] [TIFF OMITTED] T5509.032

[GRAPHIC] [TIFF OMITTED] T5509.033

[GRAPHIC] [TIFF OMITTED] T5509.034

[GRAPHIC] [TIFF OMITTED] T5509.035

[GRAPHIC] [TIFF OMITTED] T5509.036

[GRAPHIC] [TIFF OMITTED] T5509.037

[GRAPHIC] [TIFF OMITTED] T5509.038

[GRAPHIC] [TIFF OMITTED] T5509.039

[GRAPHIC] [TIFF OMITTED] T5509.040

[GRAPHIC] [TIFF OMITTED] T5509.041

[GRAPHIC] [TIFF OMITTED] T5509.042

[GRAPHIC] [TIFF OMITTED] T5509.043

[GRAPHIC] [TIFF OMITTED] T5509.044

[GRAPHIC] [TIFF OMITTED] T5509.045

[GRAPHIC] [TIFF OMITTED] T5509.046

[GRAPHIC] [TIFF OMITTED] T5509.047

[GRAPHIC] [TIFF OMITTED] T5509.048

[GRAPHIC] [TIFF OMITTED] T5509.049

[GRAPHIC] [TIFF OMITTED] T5509.050

[GRAPHIC] [TIFF OMITTED] T5509.051

[GRAPHIC] [TIFF OMITTED] T5509.052

[GRAPHIC] [TIFF OMITTED] T5509.053

[GRAPHIC] [TIFF OMITTED] T5509.054

[GRAPHIC] [TIFF OMITTED] T5509.055

[GRAPHIC] [TIFF OMITTED] T5509.056

[GRAPHIC] [TIFF OMITTED] T5509.057

[GRAPHIC] [TIFF OMITTED] T5509.058

[GRAPHIC] [TIFF OMITTED] T5509.059

[GRAPHIC] [TIFF OMITTED] T5509.060

[GRAPHIC] [TIFF OMITTED] T5509.061

[GRAPHIC] [TIFF OMITTED] T5509.062

[GRAPHIC] [TIFF OMITTED] T5509.063

[GRAPHIC] [TIFF OMITTED] T5509.064

[GRAPHIC] [TIFF OMITTED] T5509.065

[GRAPHIC] [TIFF OMITTED] T5509.066

[GRAPHIC] [TIFF OMITTED] T5509.067

[GRAPHIC] [TIFF OMITTED] T5509.068

[GRAPHIC] [TIFF OMITTED] T5509.069

[GRAPHIC] [TIFF OMITTED] T5509.070

[GRAPHIC] [TIFF OMITTED] T5509.071

[GRAPHIC] [TIFF OMITTED] T5509.072

[GRAPHIC] [TIFF OMITTED] T5509.073

[GRAPHIC] [TIFF OMITTED] T5509.074

[GRAPHIC] [TIFF OMITTED] T5509.075

[GRAPHIC] [TIFF OMITTED] T5509.076

[GRAPHIC] [TIFF OMITTED] T5509.077

[GRAPHIC] [TIFF OMITTED] T5509.078

[GRAPHIC] [TIFF OMITTED] T5509.079

[GRAPHIC] [TIFF OMITTED] T5509.080

[GRAPHIC] [TIFF OMITTED] T5509.081

[GRAPHIC] [TIFF OMITTED] T5509.082

[GRAPHIC] [TIFF OMITTED] T5509.083

[GRAPHIC] [TIFF OMITTED] T5509.084

[GRAPHIC] [TIFF OMITTED] T5509.085

[GRAPHIC] [TIFF OMITTED] T5509.086

[GRAPHIC] [TIFF OMITTED] T5509.087

[GRAPHIC] [TIFF OMITTED] T5509.088

[GRAPHIC] [TIFF OMITTED] T5509.089

[GRAPHIC] [TIFF OMITTED] T5509.090

[GRAPHIC] [TIFF OMITTED] T5509.091

[GRAPHIC] [TIFF OMITTED] T5509.092

[GRAPHIC] [TIFF OMITTED] T5509.093

[GRAPHIC] [TIFF OMITTED] T5509.094

[GRAPHIC] [TIFF OMITTED] T5509.095

[GRAPHIC] [TIFF OMITTED] T5509.096

[GRAPHIC] [TIFF OMITTED] T5509.097

[GRAPHIC] [TIFF OMITTED] T5509.098

[GRAPHIC] [TIFF OMITTED] T5509.099

[GRAPHIC] [TIFF OMITTED] T5509.100

[GRAPHIC] [TIFF OMITTED] T5509.101

[GRAPHIC] [TIFF OMITTED] T5509.102

[GRAPHIC] [TIFF OMITTED] T5509.103

[GRAPHIC] [TIFF OMITTED] T5509.104

[GRAPHIC] [TIFF OMITTED] T5509.105

[GRAPHIC] [TIFF OMITTED] T5509.106

[GRAPHIC] [TIFF OMITTED] T5509.107

[GRAPHIC] [TIFF OMITTED] T5509.108

[GRAPHIC] [TIFF OMITTED] T5509.109

[GRAPHIC] [TIFF OMITTED] T5509.110

[GRAPHIC] [TIFF OMITTED] T5509.111

[GRAPHIC] [TIFF OMITTED] T5509.112

[GRAPHIC] [TIFF OMITTED] T5509.113

[GRAPHIC] [TIFF OMITTED] T5509.114

[GRAPHIC] [TIFF OMITTED] T5509.115

[GRAPHIC] [TIFF OMITTED] T5509.116

[GRAPHIC] [TIFF OMITTED] T5509.117

[GRAPHIC] [TIFF OMITTED] T5509.118

[GRAPHIC] [TIFF OMITTED] T5509.119

[GRAPHIC] [TIFF OMITTED] T5509.120

[GRAPHIC] [TIFF OMITTED] T5509.121

[GRAPHIC] [TIFF OMITTED] T5509.122

[GRAPHIC] [TIFF OMITTED] T5509.123

[GRAPHIC] [TIFF OMITTED] T5509.124

[GRAPHIC] [TIFF OMITTED] T5509.125

[GRAPHIC] [TIFF OMITTED] T5509.126

[GRAPHIC] [TIFF OMITTED] T5509.127

[GRAPHIC] [TIFF OMITTED] T5509.128

[GRAPHIC] [TIFF OMITTED] T5509.129

[GRAPHIC] [TIFF OMITTED] T5509.130

[GRAPHIC] [TIFF OMITTED] T5509.131

[GRAPHIC] [TIFF OMITTED] T5509.132

[GRAPHIC] [TIFF OMITTED] T5509.133

[GRAPHIC] [TIFF OMITTED] T5509.134

[GRAPHIC] [TIFF OMITTED] T5509.135

[GRAPHIC] [TIFF OMITTED] T5509.136

[GRAPHIC] [TIFF OMITTED] T5509.137

[GRAPHIC] [TIFF OMITTED] T5509.138

[GRAPHIC] [TIFF OMITTED] T5509.139

[GRAPHIC] [TIFF OMITTED] T5509.140

[GRAPHIC] [TIFF OMITTED] T5509.141

[GRAPHIC] [TIFF OMITTED] T5509.142

[GRAPHIC] [TIFF OMITTED] T5509.143

[GRAPHIC] [TIFF OMITTED] T5509.144

[GRAPHIC] [TIFF OMITTED] T5509.145

[GRAPHIC] [TIFF OMITTED] T5509.146

[GRAPHIC] [TIFF OMITTED] T5509.147

[GRAPHIC] [TIFF OMITTED] T5509.148

[GRAPHIC] [TIFF OMITTED] T5509.149

[GRAPHIC] [TIFF OMITTED] T5509.150

[GRAPHIC] [TIFF OMITTED] T5509.151

[GRAPHIC] [TIFF OMITTED] T5509.152

[GRAPHIC] [TIFF OMITTED] T5509.153

[GRAPHIC] [TIFF OMITTED] T5509.154

[GRAPHIC] [TIFF OMITTED] T5509.155

[GRAPHIC] [TIFF OMITTED] T5509.156

[GRAPHIC] [TIFF OMITTED] T5509.157

[GRAPHIC] [TIFF OMITTED] T5509.158

[GRAPHIC] [TIFF OMITTED] T5509.159

[GRAPHIC] [TIFF OMITTED] T5509.160

[GRAPHIC] [TIFF OMITTED] T5509.161

[GRAPHIC] [TIFF OMITTED] T5509.162

[GRAPHIC] [TIFF OMITTED] T5509.163

[GRAPHIC] [TIFF OMITTED] T5509.164

[GRAPHIC] [TIFF OMITTED] T5509.165

[GRAPHIC] [TIFF OMITTED] T5509.166

[GRAPHIC] [TIFF OMITTED] T5509.167

[GRAPHIC] [TIFF OMITTED] T5509.168

[GRAPHIC] [TIFF OMITTED] T5509.169

[GRAPHIC] [TIFF OMITTED] T5509.170

[GRAPHIC] [TIFF OMITTED] T5509.171

[GRAPHIC] [TIFF OMITTED] T5509.172

[GRAPHIC] [TIFF OMITTED] T5509.173

[GRAPHIC] [TIFF OMITTED] T5509.174

[GRAPHIC] [TIFF OMITTED] T5509.175

[GRAPHIC] [TIFF OMITTED] T5509.176

[GRAPHIC] [TIFF OMITTED] T5509.177

[GRAPHIC] [TIFF OMITTED] T5509.178

[GRAPHIC] [TIFF OMITTED] T5509.179

[GRAPHIC] [TIFF OMITTED] T5509.180

[GRAPHIC] [TIFF OMITTED] T5509.181

[GRAPHIC] [TIFF OMITTED] T5509.182

[GRAPHIC] [TIFF OMITTED] T5509.183

[GRAPHIC] [TIFF OMITTED] T5509.184

[GRAPHIC] [TIFF OMITTED] T5509.185

[GRAPHIC] [TIFF OMITTED] T5509.186

[GRAPHIC] [TIFF OMITTED] T5509.187

[GRAPHIC] [TIFF OMITTED] T5509.188

[GRAPHIC] [TIFF OMITTED] T5509.189

[GRAPHIC] [TIFF OMITTED] T5509.190

[GRAPHIC] [TIFF OMITTED] T5509.191

[GRAPHIC] [TIFF OMITTED] T5509.192

[GRAPHIC] [TIFF OMITTED] T5509.193

[GRAPHIC] [TIFF OMITTED] T5509.194

[GRAPHIC] [TIFF OMITTED] T5509.195

[GRAPHIC] [TIFF OMITTED] T5509.196

[GRAPHIC] [TIFF OMITTED] T5509.197

[GRAPHIC] [TIFF OMITTED] T5509.198

[GRAPHIC] [TIFF OMITTED] T5509.199

[GRAPHIC] [TIFF OMITTED] T5509.200

[GRAPHIC] [TIFF OMITTED] T5509.201

[GRAPHIC] [TIFF OMITTED] T5509.202

[GRAPHIC] [TIFF OMITTED] T5509.203

[GRAPHIC] [TIFF OMITTED] T5509.204

[GRAPHIC] [TIFF OMITTED] T5509.205

[GRAPHIC] [TIFF OMITTED] T5509.206

[GRAPHIC] [TIFF OMITTED] T5509.207

[GRAPHIC] [TIFF OMITTED] T5509.208

[GRAPHIC] [TIFF OMITTED] T5509.209

[GRAPHIC] [TIFF OMITTED] T5509.210

[GRAPHIC] [TIFF OMITTED] T5509.211

[GRAPHIC] [TIFF OMITTED] T5509.212

[GRAPHIC] [TIFF OMITTED] T5509.213

[GRAPHIC] [TIFF OMITTED] T5509.214

[GRAPHIC] [TIFF OMITTED] T5509.215

[GRAPHIC] [TIFF OMITTED] T5509.216

[GRAPHIC] [TIFF OMITTED] T5509.217

[GRAPHIC] [TIFF OMITTED] T5509.218

[GRAPHIC] [TIFF OMITTED] T5509.219

[GRAPHIC] [TIFF OMITTED] T5509.220

[GRAPHIC] [TIFF OMITTED] T5509.221

[GRAPHIC] [TIFF OMITTED] T5509.222

[GRAPHIC] [TIFF OMITTED] T5509.223

[GRAPHIC] [TIFF OMITTED] T5509.224

[GRAPHIC] [TIFF OMITTED] T5509.225

[GRAPHIC] [TIFF OMITTED] T5509.226

                                 <all>

</pre></body></html>
